<html>
<title> - DEFICIT REDUCTION AND JOB CREATION: REGULATORY REFORM IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 112-620]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-620

DEFICIT REDUCTION AND JOB CREATION: REGULATORY REFORM IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

75-282 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2011.................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................     3
Statement of Senator Udall.......................................     4

                               Witnesses

Blackwell, Geoffrey C., Chief, Office of Native Affairs and 
  Policy, Federal Communications Commission......................    13
    Prepared statement...........................................    14
Casias, Hon. Pearl E., Chairman, Tribal Council, Southern Ute 
  Indian Tribe...................................................    51
    Prepared statement...........................................    51
Cromwell, Hon. Cedric, Chairman, Mashpee Wampanoag Tribe.........    48
    Prepared statement...........................................    50
Keel, Hon. Jefferson, President, National Congress of American 
  Indians........................................................    23
    Prepared statement...........................................    25
O'Brien, Doug, Deputy Under Secretary for Rural Development, U.S. 
  Department of Agriculture......................................     5
    Prepared statement...........................................     6
Shelly, Hon. Ben, President, Navajo Nation.......................    44
    Prepared statement...........................................    45

                                Appendix

Black Eagle, Hon. Cedric, Chairman, Crow Tribe, prepared 
  statement......................................................    59

 
DEFICIT REDUCTION AND JOB CREATION: REGULATORY REFORM IN INDIAN COUNTRY

                              ----------                              


                       THURSDAY, DECEMBER 1, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Committee will come to order. Aloha and 
welcome to all of you, to this Committee's oversight hearing on 
Deficit Reduction and Job Creation: Regulatory Reform in Indian 
Country.
    Today, our Country finds itself in very difficult economic 
times. Many Native communities have been hit hard by the 
economic downturn and stagnant job market.
    Unfortunately, such challenges are not new to Indian 
Country, where double-digit unemployment rates have always 
soared high above the national average. In some Native 
communities, unemployment is as high as 75 percent. Can you 
believe it?
    Tribes have difficult and unique challenges in developing 
their economies. They are not equal with State and local 
government in their ability to access essential financial tools 
such as tax-exempt bonds.
    Native communities also suffer from a lack of sufficient 
infrastructure, especially broadband, which makes it difficult 
to provide housing, health care and education for a qualified 
work force.
    Finally, Tribes suffer from disproportionate regulatory 
hurdles that prevent energy and other economic development 
projects. Tribes need strong local economies, not just to 
provide jobs and services to their own members, but also to 
help support families in surrounding communities. Tribes are 
often the largest local employer as well as the largest 
purchaser of goods and services. They also are often in a 
unique position to drive local economic growth and job 
creation. But they need the right tools to do that.
    That is why we are here today. Federal agencies can play a 
very important role in helping Tribes overcome these 
challenges, support Tribal financing and infrastructure 
development. They can also help reform administrative policies 
and regulations to reduce barriers to economic development.
    At a time when deficit reduction is a national priority, we 
must make our current Federal programs work better. We look 
forward to hearing testimony today from our Federal and Tribal 
witnesses about how our agencies can work more efficiently and 
effectively to support Tribal economic development and spur job 
creation.
    And now I would like to ask our Vice Chair, Senator 
Barrasso, for any opening remarks that he may have.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this very important hearing. I agree with your comments 
and I appreciate your leadership on this. Because wherever I go 
in Wyoming and meet with leaders of the Eastern Shoshone and 
the Northern Arapaho Tribes, they continue to point out and we 
continue to visit about how important economic development is 
in Wyoming's Indian communities, which is exactly what you have 
said for the entire Nation.
    Certainly on the Wind River Reservation, economic 
development is often another term for energy development. 
Energy development on the Wind River Reservation means jobs. 
And it means incomes for families, it means paying the bills, 
putting food on the table, just as you have said, Mr. Chairman.
    Like many other reservations, the Wind River communities 
have significant challenges when it comes to economic 
development. Some of them are in remote locations. Metropolitan 
areas with large markets are far away. Employment opportunities 
are much too limited. Some reservations are blessed with a 
wealth of natural resources, energy, mineral resources, 
agriculture, timber, and other resources. Under applicable law, 
these resources are supposed to be managed in a way that 
benefits the Tribes and the members of the Tribes.
    Sometimes, however, Federal laws and regulations and the 
way that they are implemented seem to do more harm, I am 
seeing, at least, seem to do more harm than good. And I will 
cite some examples. I recently introduced, and Mr. Chairman, 
you co-sponsored, what is titled the Indian Tribal Energy 
Development and Self-Determination Act Amendments of 2011. 
Before doing that, we engaged in a lot of consultation in 
Indian Country. The one thing we heard time and again is that 
the energy lease approval process is tied up on red tape and it 
takes too long. The NEPA process was a major contributor, we 
heard, to this problem. Some stakeholders urged us to simply 
exempt Indian lands from NEPA. These are similar to the 
complaints that we heard prior to the introduction of the 
HEARTH Act, which you and I have co-sponsored, working 
together. The Energy Bill and the HEARTH Act represent efforts 
to reform Federal laws that are inhibiting development that we 
will need in Indian Country.
    Statutory laws are not the problem, however. Federal 
regulations and agency implementation of the statutes are often 
significant factors as well. Today, we are going to hear 
testimony from President Ben Shelly. We read through his 
written testimony on behalf of the Navajo Nation, and it tells 
a compelling story about the impact of EPA actions in Indian 
Country. So I urge all of our members and everyone in the 
audience to listen closely to what he has to say about the 
EPA's regional haze rule in the Four Corners area. We need to 
be reminded that there are definite, real-life consequences to 
over-zealous regulations.
    One last example I will mention as involving EPA is the 
recently-promulgated Minor Source Rule for Indian Country. That 
is a rule that significantly affects oil and gas activities in 
Indian Country under the Clean Air Act. That rule was adopted 
in August of this year. Most of the rule doesn't go into effect 
for three years. That delay is crucial to have a smooth 
implementation process.
    Unfortunately, the new rule went into immediate effect for 
any new development of so-called synthetic minor sources. And 
it is my understanding that neither the EPA nor industry is 
prepared for that. And we are hearing from some corners of 
Indian Country that this will cause real problems.
    EPA easily could have avoided these problems by simply 
postponing the effective date for the entire rule. So I can't 
fathom why they chose to bifurcate the effective date of the 
rule.
    I could go on, Mr. Chairman, but I think I made my points. 
In these times of economic hardship, as you said in your 
statement today, we should be looking for ways to encourage 
economic development, not inhibit it or prevent it. So I look 
forward to hearing from the witnesses and I thank you for your 
continued leadership, Mr. Chairman. Thank you.
    The Chairman. Thank you very much, Senator Barrasso. You 
certainly have made your points clearly.
    Now I would like to call on Senator Al Franken for his 
remarks.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. I would like to 
thank you and the Vice Chairman for holding this important 
hearing about the relationship between economic development in 
Indian Country and Federal Government programs. Economic 
development is really the key to every community's success. If 
there is economic development, there are jobs. Where there are 
jobs, there is hope, there is dignity and a sense of purpose. 
There is housing for families and kids have a better chance for 
a good education.
    But if economic development is hindered, all those are at 
risk. Tribes face a host of hurdles when trying to bring 
economic development to their communities, from a lack of 
infrastructure and duplicative regulations to problems 
accessing Federal programs and capital. There are definitely 
ways to improve Federal Government regulations and programs. I 
was pleased to see that as directed by President Obama, the 
Department of Interior intends to reduce the regulatory burden 
on Indian Country. In its plan for retrospective regulatory 
review it has highlighted its goal to save 50,000 hour of 
unnecessary clerical paperwork. I hope that is on more than one 
guy.
    [Laughter.]
    Senator Franken. By streamlining administration for Indian 
Country, more agencies should follow that lead.
    With limited resources, we also need to look at ways to 
increase flexibility and improve collaboration across programs 
and agencies. I hope that in today's hearing we can look at 
what is working and what is not in Indian Country. One thing we 
know for sure is that the active involvement of Tribes is 
absolutely critical.
    I look forward to hearing from our witnesses about 
innovative ways to create jobs and drive economic development 
in Indian Country. I thank all of the witness for coming today. 
Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Franken.
    And now I will call on Senator Tom Udall for his opening 
statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Akaka, and thank you for 
holding this important hearing. I think we have all recognized 
how important it is to have economic development in Indian 
Country. I want to echo what all the others have said before 
me.
    I hope today we can identify some areas where Congress and 
the Administration can work with Tribal communities to remove 
regulatory roadblocks and bolster economic development.
    I would like to welcome the President of the Navajo Nation, 
Ben Shelly. He is here today and I believe the first lady, 
Martha Shelly, is also with us here in the audience.
    There have been some impressive infrastructure and economic 
developments in the last decade as more broadband has spread 
into the Navajo Nation. Housing efforts have been redoubled and 
those have been very successful. And more economic 
opportunities have emerged. The Navajo Nation has bold and 
aggressive plans to increase renewable energy development, 
expand infrastructure, from rural water pipelines to roads and 
to housing. I look forward to hearing from President Shelly on 
some of these issues and on areas where we can work with him 
and other Tribal leaders to build Tribal economies.
    This hearing is also a good opportunity for the Committee 
to reemphasize the vital need to ensure, through the coming 
years of deficit reduction, Tribal programs are not sacrificed. 
The Federal Government has a trust obligation to Native 
Americans to provide vital services. As budgets are tightened, 
this obligation should not be diminished. I would urge my 
colleagues in Congress to remember this commitment to Tribal 
nations as we move forward on stabilizing the Federal budget.
    Thank you, Chairman Akaka, again, and I look forward to 
hearing from out witnesses before us and then the panel after 
that.
    The Chairman. Thank you very much, Senator Udall.
    With that, I welcome the witnesses to our hearing today. I 
appreciate all of you for traveling to be with us today and 
look forward to hearing your testimony on this very important 
matter.
    I ask you to limit your oral testimony to five minutes. 
Your full written testimony will be recorded. Also, the record 
for this hearing will remain open for two weeks from today, so 
we welcome written comments from any interested parties. Thank 
you very much.
    I would like now to introduce Mr. Doug O'Brien, Deputy 
Under Secretary for Rural Development for the United States 
Department of Agriculture, and Mr. Geoffrey Blackwell, Chief of 
the Office of Native Affairs and Policy for the Federal 
Communications Commission.
    Mr. O'Brien, please proceed with your remarks.

  STATEMENT OF DOUG O'BRIEN, DEPUTY UNDER SECRETARY FOR RURAL 
                DEVELOPMENT, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. O'Brien. Thank you. Chairman Akaka, Vice Chairman 
Barrasso and members of the Committee, it is my pleasure to 
join you today to discuss USDA's role in supporting economic 
development on Tribal lands, and our efforts to improve the 
delivery of these programs.
    USDA programs span a wide range of areas, including those 
that directly affect farmers, conservation on private lands, 
the Forest Service lands, international trade, food safety, 
nutrition, housing, business development and much more. 
Secretary Vilsack is committed to a USDA that faithfully serves 
Tribal organizations and individual American Indians and Alaska 
Natives.
    The Office of Tribal Relations, located within the Office 
of the Secretary, works to ensure that relevant programs and 
policies are easy to understand, accessible and developed in 
consultation with the American Indian and Alaska Native 
constituents. President Obama signed an executive order 
establishing the first White House Rural Council on June 9, 
2011. The White House Rural Council, chaired by Secretary 
Vilsack, coordinates programs across Government to encourage 
public-private partnerships, to promote further economic 
prosperity and improve the quality of life in rural communities 
nationwide and has focused on issues important to Tribal 
communities.
    USDA is also addressing civil rights complaints for new and 
stronger relationships with the farming and ranching community. 
In October of 2010, Secretary Vilsack announced the Keepseagle 
settlement with Native American farmers that, beyond the 
monetary award, very importantly features significant technical 
assistance.
    As the Deputy Under Secretary of Rural Development, I would 
like to spend the balance of my time this morning talking 
specifically about this mission area and its associated 
programs. Rural Development is a collaborative agency with 
programs that build upon one another. We offer programs that 
support essential public facilities and services that promote 
economic development in rural areas. Rural Development's 
network of staff in 47 State-level offices and 500 area offices 
work closely with Tribes and dedicated partners. Staffs in 
local offices deliver programs for all three of Rural 
Development's agencies: the Rural Business and Cooperative 
Service; Rural Housing Service; and the Rural Utility Service. 
We also maintain a Native American Tribal coordinator to assist 
Tribes with their development interests at our State offices.
    From 2001 to 2010, Rural Development assistance benefitting 
Tribes totaled more than $2.7 billion, including $400 million 
to expand broadband access in Tribal communities. We continue 
to support Tribal businesses in 2011 and look forward to 
supporting them in the future.
    For example, through the Rural Business Enterprise Grant 
Program, the Montana Indian Business Alliance received a grant 
to provide business technical assistance to members to the 
Indian Tribes of Montana. The Wind River Development Fund in 
Wyoming also received a grant to conduct a feasibility study 
for the development of a joint venture construction project to 
build a new health clinic in Fort Washakie to serve residents 
of the Wind River Indian Reservation.
    While we have been proud to partner with Tribal communities 
and members on important projects, we believe that we can do 
better. We have utilized the Tribal consultation process as 
directed by President Obama in 2009 to learn about how we can 
adjust our programs to better fit the needs of Indian Country. 
In 2010 and 2011, Rural Development conducted 20 direct 
government to government consultations, 7 regional 
consultations and countless other roundtables, listening 
sessions and meetings. Not only have we listened in the 
consultations, we have already acted on the wise counsel 
provided.
    For example, we expanded the definition of small business 
in the Rural Energy for America program, a program that 
provides grants and loans for renewable energy production, to 
explicitly include Section 17 corporations and other similar 
Tribal corporations as eligible applicants. Rural Development 
recently released an administrative notice to clarify the 
eligibility of Amerind Risk Management Corporation as an 
insurer for single family housing direct loan programs.
    Historically, insurance and insurance-like products have 
been unavailable, difficult to access or expensive on trust 
lands owned by Tribes and Tribal members. Our efforts in 
working with Amerind to bring them into the insurer pool for 
rural Development projects will make access to our housing 
funding projects more amenable in Indian Country.
    Rural Development's programs are a critical component to 
supporting, growing and ultimately sustaining Tribal 
communities. While Rural Development program funding for fiscal 
year 2012 has been reduced, we are committed to continuing to 
improve our support and partnership through consultation in 
Tribal communities.
    Again, thank you for the opportunity to be here today. I 
look forward to addressing any questions that you have, 
Chairman, or any of the other members have.
    [The prepared statement of Mr. O'Brien follows:]

 Prepared Statement of Doug O'Brien, Deputy Under Secretary for Rural 
              Development, U.S. Department of Agriculture
    Chairman Akaka, Vice Chairman Barrasso and Members of the 
Committee, it is my pleasure to join you today to discuss USDA's role 
in supporting economic development on tribal lands. USDA Programs span 
a wide range of areas, including international trade, food safety, 
housing, business development, telecommunications, water systems, crop 
insurance, school lunches and more. I encourage tribal leaders to be 
innovative in thinking about how to best utilize USDA's diverse 
resources to better serve their communities.
    Secretary Vilsack is committed to a Department of Agriculture 
(USDA) that faithfully serves Tribal organizations and individual 
American Indians and Alaska Natives. The Office of Tribal Relations 
(OTR), located within the Office of the Secretary, works to ensure that 
relevant programs and policies are efficient, easy to understand, 
accessible, and developed in consultation with the American Indian and 
Alaskan Native constituents they impact.
    OTR is the primary point of contact for Tribal issues within USDA, 
and is responsible for:

  <bullet> Government-to-government relations between USDA and tribal 
        governments;
  <bullet> Advising Secretary Vilsack on Tribal issues and concerns; 
        Tribal Consultation;
  <bullet> Alaska Native Claims Settlement Act (ANCSA);
  <bullet> Issues impacting Tribal members; and
  <bullet> Working cooperatively and collaboratively across USDA to 
        build an integrated approach to issues, programs, and services 
        addressing the needs of American Indians and Alaskan Natives.

    We believe that the efforts and commitment of OTR is guiding the 
Department towards a more flexible approach in addressing the needs on 
Tribal lands.
    Since President Obama's 2009 Memorandum on Consultation, a 
dedicated team from across USDA has been working to re-examine existing 
departmental policies and regulations regarding collaboration and 
consultation. We have held a series of joint consultation events where 
we heard from tribal representatives about program rules and challenges 
to utilizing USDA programs in Indian Country to better understand the 
specific needs of Tribes across the country. Staff continues to 
communicate with tribal leaders, members and organizations on a daily 
basis. In addition, on June 9th, President Obama signed an Executive 
Order establishing the first White House Rural Council. The White House 
Rural Council will coordinate programs across government to encourage 
public-private partnerships to promote further economic prosperity and 
quality of life in rural communities nationwide.
    Chaired by Secretary of Agriculture Tom Vilsack, the Council is 
responsible for providing recommendations for investment in rural areas 
and will coordinate Federal engagement with a variety of rural 
stakeholders, including tribal governments. The Council will break down 
silos and find areas for better collaboration and improved flexibility 
in government programs and will work closely with state, local and 
tribal governments, non-profits, private companies, and to leverage 
federal support.
    In furtherance of this objective, in August the Rural Council 
convened the White House Native American Business Leaders Roundtable 
with tribal representatives, economic development experts, and Federal 
policymakers. At this listening session, participants discussed 
challenges tribal businesses face, including access to capital, job 
skills and training shortfalls, and limited broadband deployment and 
adoption in tribal communities.
    The feedback and insight gained by my colleagues are being 
incorporated into our ongoing efforts to address economic growth in 
Indian Country, and USDA looks forward to all we can achieve with our 
partners in the Federal Government and in Indian Country to create more 
opportunity in Native American communities.
    USDA is also addressing civil rights complaints that go back 
decades to pave the way for new and stronger relationships with the 
farming and ranching community. In October of 2010, Secretary Vilsack 
announced the Keepseagle settlement with Native American farmers. The 
OTR reminded Native American farmers and ranchers in July that those 
who believe they are entitled to funds under the Keepseagle settlement 
must file a claim no later than December 27, 2011. Up to $760 million 
will be made available in monetary relief, debt relief, and tax relief 
to successful claimants.
    Furthermore, USDA continues to be an active participant on the 
Infrastructure Task Force to address the ongoing need for safe drinking 
water and basic sanitation in Indian Country. The combined funding from 
the Task Force Agencies--USDA, Environmental Protection Agency, Indian 
Health Service and the Department of Housing and Urban Development--
between 2003 and 2009 provided 80,941 tribal homes access to safe 
drinking water and 43,562 tribal homes access to basic sanitation. 
These numbers demonstrate significant progress made by the Task Force 
agencies, but we recognize that more work is needed. To this end, the 
Task Force is refocusing the access goal around the principle that 
``access to safe drinking water and basic sanitation shall be provided 
through entities that are sustainable and implemented through 
integrated agency planning that links the development goals of the 
tribe with the need for such services and infrastructure.'' This 
refocused principle fits well with USDA Rural Development programs that 
are committed to improving the economy and quality of life in rural 
areas.
    As the Deputy Under Secretary of Rural Development, I'd like to 
spend the balance of my time this morning specifically talking about 
this mission area and its associated programs.
    Rural Development is a collaborative agency with programs that 
build upon one another ultimately creating efficiencies for the 
taxpayers and the communities that we serve. Rural Development provides 
financial programs to support essential public facilities and services 
such as water and sewer systems, housing, health clinics, emergency 
service facilities, electric, telephone and broadband services. Rural 
Development promotes economic development in rural areas by providing 
loans, loan guarantees, grants, and other assistance to applicants, 
including tribes, tribal members, individuals and families, banks, and 
community-managed lending pools. To better serve tribes and to ensure 
Rural Development investments flow onto tribal lands, it is both 
pragmatic and necessary to work in cooperation with tribal councils, 
adhere to tribal ordinances and laws, and partner with other federal 
agencies such as the Indian Health Service, the Bureau of Indian 
Affairs and the Department of Housing and Urban Development.
    Rural Development has exceptional staff in our network of 47 state-
level field offices and 500 area offices across the rural landscape 
working closely with tribes and dedicated partners in the for-profit 
and non-profit sectors. Rural Development staff in the local offices 
delivers programs for all three agencies in the Rural Development 
mission area--Rural Business and Cooperative Services, Rural Housing 
Service and Rural Utilities Services. By being located in rural 
communities, we are able to cultivate important relationships with 
tribal leaders, tribal professional staff, lenders, realtors, 
community-based organizations, redevelopment authorities, leadership 
groups, and others. Each state-level Rural Development office maintains 
a Native American Tribal Coordinator to assist tribes with their 
development interests by providing technical assistance and 
programmatic knowledge throughout the application process.
    Rural Development has a long history of investing in tribal 
economies. From 2001 to 2010, Rural Development assistance benefiting 
tribes totaled more than $2.7 billion.
    To understand what these programs mean to the communities they 
serve, it might be helpful to frame the situation in terms of the more 
familiar urban landscape most Americans inhabit. When an urban area 
loses an employer, the fallout, while potentially very significant, is 
seldom crippling for the local economy. City leaders assemble a team 
and redouble ongoing efforts to woo other corporations with promises of 
infrastructure improvements and tax credits, promotional materials that 
highlight transportation efficiencies, and an abundant and educated 
labor supply. They point to quality housing stock, good schools, and 
strong vibrant communities that are supportive of long-term investment.
    This response is almost without corollary in vast areas of rural 
America--including Indian Country. The municipal resources needed to 
market a rural area to compete for businesses often don't exist. The 
available labor supply generally doesn't have the depth of educational 
achievement or skills of its urban or suburban counterpart. The 
infrastructure, transportation, housing and schools are typically 
challenged, and the distances to customers or markets are often 
greater.
    Rural Development programs are designed to address these 
challenges. Using program resources to encourage healthier, more 
efficient credit markets, Rural Development field offices develop 
innovative to meet the unique needs of tribal and rural communities. To 
support rural regional and tribal economic prosperity, Rural 
Development provides job training and business development 
opportunities for rural residents, including cooperative business 
development, community economic development and strategic community 
planning and self-help initiatives. Funding for most of these efforts 
is administered by Rural Business Programs.
    Rural Development also offers programs to provide the educational 
opportunities, training, technical support, and tools for rural 
residents to start small businesses and to access jobs in agricultural 
markets, the green economy, and other existing markets, as well as 
acquire training in vocational and entrepreneurship skills they can use 
in the marketplace and business sector.
    USDA, in cooperation with our public and private partners, is 
connecting tribes, tribal members and rural residents to the global 
economy by:

        1. Increasing access to broadband and continuous business 
        creation;
        2. Facilitating sustainable renewable energy development;
        3. Developing regional food systems; and
        4. Generating and retaining jobs through recreation and natural 
        resource restoration, conservation, and management.

    Such investments support our long-term national prosperity by 
ensuring that rural communities are self-sustaining, repopulating, and 
thriving economically.
    For example, in 2011, Rural Development invested in businesses in 
Indian County through multiple programs. These investments included 
$7.6 million through the Business and Industry (or B&I) Loan Guarantee 
program and another $4.2 million in grants through the Rural Business 
Enterprise and Rural Business Opportunity Grant Programs (RBEG and RBOG 
programs) to support tribal economic development and job creation 
opportunities for tribal members. RBEG and RBOG programs are among the 
few Rural Development programs where Congress legislatively mandates 
that some funds be reserved exclusively for the benefit of Federally 
Recognized Tribes.
    Under the Rural Business Opportunity Grant Programs funding this 
year, in Oklahoma, the Indian Country Agriculture Resource Development 
Corporation was selected to receive a grant to provide business 
training to two dozen Native American agricultural entrepreneurs who 
are working to supply meat and vegetable products to southwestern 
buyers. The funding will be used for training that includes general 
business planning and feasibility assessment, risk assessment, 
marketing techniques and financial planning. The Nez Perce Tribe in 
rural Idaho also received a Rural Business Opportunity Grant this year 
to establish a Business Information Research Library and a Chamber of 
Commerce with a Leadership Development Program.
    Likewise, under the Rural Business Enterprise Grant Program the 
Montana Indian Business Alliance in Great Falls, Mont., was selected to 
receive a grant to provide businesses training technical assistance to 
members of Indian Tribes of Montana. The funding will create an 
estimated 14 jobs. In Ukiah, Calif., Resource for Native Development 
was selected to receive a technical assistance grant to provide Tribal 
members with business and entrepreneurial training--including training 
that focuses on developing biomass-centered businesses and local food 
hubs. This project is expected to create 30 jobs.
    The Wind River Development Fund in Wyoming received an RBEG grant 
to conduct a feasibility study for the development of a joint venture 
construction project to build a new health clinic in Fort Washakie, 
Wyoming to serve residents of the Wind River Indian Reservation. The 
Wind River Development Fund is a tribally chartered, non-profit 
corporation assisting Native peoples develop small and emerging 
businesses.
    USDA also received Recovery Act funds to expand broadband access, 
and through those funds provided grants and loans totaling over $400 
million to expand broadband access in tribal communities through the 
Broadband Initiatives Program. This included $182 million to ten 
infrastructure investments directly to tribes and tribally-owned 
businesses and eleven technical assistance awards to tribes to assist 
with regional broadband plans to promote economic development. 
Similarly, Rural Development made $216.3 million in Recovery Act 
investments benefiting American Indian and Alaska Native populations, 
including $36.3 million for community water and wastewater 
infrastructure, $97.5 million for community facilities, and $81.1 
million for single family housing. The Obama Administration continues 
its commitment to the success of rural areas by providing tribal 
communities and rural areas with resources to expand economic 
opportunities.
    In 2010 and 2011 Rural Development engaged in unprecedented tribal 
consultation and outreach activities. Rural Development conducted 
twenty direct government-to-government Substantially Underserved Trust 
Areas (or SUTA) consultations, seven regional consultation, one 
listening session, and three Internet and toll free teleconference 
webinars. Feedback from these efforts helped the Rural Utilities 
Service with the implementation of the SUTA provision of the 2008 Farm 
Bill--for which we just published a proposed rule in the Federal 
Register on October 14th. The SUTA provision, once fully implemented 
will allow Rural Development to provide much greater flexibility and 
more favorable term loans to create much needed utilities 
infrastructure.
    This past year, based on tribal feedback, we also expanded the 
definition of small businesses in the Rural Energy for America Program 
to explicitly include Tribal Section 17 Corporations and other similar 
Tribal Corporations as eligible applicants. This may seem like a minor 
change, but it provides a clear path toward eligibility so that tribal 
corporations can access both grants and loan guarantees to help finance 
renewable energy and energy efficiency projects.
    Through consultation with tribes and tribal leaders, communicating 
with staff and analyzing our programs, it also became apparent that 
significant challenges exist when tribal entities attempt to access the 
Value-Added Agricultural Product Market Development grants or VAPG 
program. The program is designed to help eligible producers of 
agricultural commodities enter into or expand value-added activities 
including the development of feasibility studies, business plans, and 
marketing strategies. The program will also provide working capital for 
expenses such as implementing an existing viable marketing strategy.
    Eligible applicants for the VAPG program are independent producers, 
farmer and rancher cooperatives, agricultural producer groups, and 
majority-controlled producer-based business ventures. The unique 
cultural and governmental structures of tribes are diverse, but in 
general the tribal nature of these communities does not encourage 
further grouping of shared interests (e.g. cooperatives, producer 
groups, majority controlled producer-based business ventures). The VAPG 
program requirements coupled with the typical governmental structures 
of tribal entities may have discouraged some tribal organizations from 
applying for VAPG funds.
    Due to the unique nature of the relationship between USDA and 
Federally Recognized Indian Tribes and changes in the 2008 Farm Bill 
that provide priorities for beginning farmers or ranchers, socially 
disadvantaged farmers or ranchers, and operators of small- and medium-
sized family farms, Rural Development is encouraging the field staff to 
use maximum flexibility when determining whether or not applications 
from tribal entities are eligible for assistance under the VAPG 
program.
    The unique cultural and governmental structures of tribes does not 
typically encourage grouping of shared interests into cooperatives, 
producer groups, or majority controlled producer-based business 
ventures. In many instances, tribal organizations forming shared 
interest organizations would be duplicative and unnecessary. In lieu of 
these organizational structures in Indian Country, tribal entities 
engaged in value added activities might be considered independent 
producers or agriculture producer groups. Examples of tribal entities 
that may be eligible include: tribally owned for profit corporations, 
tribally owned farms, tribal Section 17 Corporations, for profit and 
not for profit corporations created under the laws of a federally 
recognized tribe, cooperatives formed under the laws of a federally 
recognized tribe, and tribal governments (including sub-divisions 
thereof).
    On another note--Rural Development is in the process of releasing 
an administrative notice to clarify the eligibility of AMERIND Risk 
Management Corporation as an insurer for Single Family Housing Direct 
Loan programs. Historically, insurance and insurance-like products have 
been unavailable, difficult to access, or expensive on trust lands 
owned by tribes and tribal members. In some instances this lack of 
insurance may have been an impediment to utilizing Rural Development 
financing for projects on tribal lands. In practice, Rural Development 
requires Federal and applicable state laws and regulations to be 
followed when insuring Rural Development financed projects, but barring 
those limitations there is no legal or programmatic reason to deny the 
use of an appropriate AMERIND product on any project financed through 
Rural Development's Single Family Housing Direct Loan programs. Our 
efforts in working with AMERIND to bring them into the insurer pool for 
RD projects will make access to our housing funding products more 
amenable in Indian Country.
    Rural Development will continue to build upon this Administration's 
strong commitment to Indian Country by working to find areas for better 
collaboration and improved flexibility in government programs.
    An example of collaboration with Rural Development is demonstrated 
by the Bois Forte Tribe in northeastern Minnesota. As recently as 10 
years ago, there were areas of the Bois Forte community that did not 
have safe and sanitary drinking water. Building safe and affordable 
housing for tribal members also was an issue, along with other 
infrastructure and facility needs.
    Tribal leaders took a proactive approach and formed a valuable 
partnership with USDA Rural Development. The partnership has resulted 
in modern infrastructure, updated facilities, and more affordable 
housing being built in the community. Though the work at Bois Forte is 
not done, the tribe is now recognized for its dedication toward 
economic development and improving the quality of life for tribal 
members.
    According to the USDA Rural Development State Director in 
Minnesota, Colleen Landkamer, ``It's amazing to see the dedication and 
passion that Bois Forte puts into improving its community. Bois Forte 
understands how housing, infrastructure and essential community 
facilities intertwine to create sustainable and livable communities.''
    Since 1994, Rural Development has invested over $13.5 million 
throughout the Bois Forte community. Projects include funding to 
deliver safe drinking water to new affordable housing developments, 
equipment for a tribal fitness center, utility vehicles and equipment, 
and gap financing for tribal businesses.
    Kevin Leecy, Bois Forte Tribal Chair recently stated, ``Through our 
partnership with the USDA, we've been able to build the infrastructure 
necessary to develop residential neighborhoods and complete other 
projects. The partnership is a win-win for our people and the economic 
growth of the broader community.''
    Rural Development also awarded a $100,000 loan and grant to finance 
the purchase of a new snow plow for the reservation. A $2.5 million 
loan and grant also helped deliver water and sewer services to over 100 
new homes in the Lake Vermillion portion of the Bois Forte community.
    Rural Development's programs are a critical component to 
supporting, growing and ultimately sustaining rural communities. 
According to the 2010 decennial census, 42.6 percent of all Native 
Americans live in rural areas. Unfortunately, some reservations face 
unemployment rates of up to 80 percent. While Rural Development program 
funding for fiscal year 2012 is limited, we recognize the importance of 
our programs. Tribal communities can benefit from the resources, 
knowledge and experience of Rural Development staff in addressing the 
challenges unique to rural areas. Rural Development can be an even more 
involved partner with Indian Country as we move forward. We have been 
actively engaging tribal leaders in consultation and intend to continue 
on this path. We know Rural Development has a portfolio that more 
tribal governments can use to build vibrant rural economies.
    While we know that there are real challenges in Indian Country, we 
also recognize the opportunity. We stand ready to support Tribes and 
Tribal members in their efforts to improve their quality of life and 
create economic opportunities. We are committed to continually 
improving our service to Native Americans, with particular focus on 
nation to nation consultation and recognition of the special trust 
relationship we have with Tribal Communities.
    I again encourage tribal leaders to reach out to the Rural 
Development Native American Coordinators. Below is a list of those 
coordinators, respectfully submitted to the Committee.

    Tedd Buelow, Native American Coordinator, USDA_Rural Development
    1400 Independence Avenue, SWStop 3250, Washington DC 20250
    Alabama
    Ricky Dawson, 207 Faulkner Drive, Suite 119, Bay Minette, AL 36507
    Nebraska
    Dale Wemhoff, 1909 Vicki Lane, Suite 103, Norfolk, NE 68701
    Alaska
    Gene Kane, 510 L Street, Suite 410, Anchorage, AK 99501
    Wayne Maloney, 800 W. Evergreen #201, Palmer, AK 99645
    Nevada
    Barbara Allen, 1390 South Curry Street, Carson City, NV 89703
    Arizona
    Don Irby, 8841 E. Florentine, Suite B, Prescott Valley, AZ 86314
    New Jersey
    Christie Mayers, Suite 2, 51 Cheney Road, Woodstown, NJ 08098
    Arkansas
    LaWanna Duvall, 420 N. Hampton Avenue, Russellville, AR 72802
    New Mexico
    Elizabeth Kistin, 6200 Jefferson NE_Room 225, Albuquerque, NM 87109
    California
    Janice Wadell, 430 G Street, Davis, CA 95616
    New York
    David Miller, 441 S. Salina St., Suite 357, Syracuse, NY 13215
    Colorado
    Amelia Owens, 628 W. 5th Street, Cortez, CO 81321
    North Carolina
    Vacant
    Delaware/Maryland
    Vacant
    North Dakota 
    Marion Houn, 220 East Rosser, Federal Bldg. Room 208, Bismark, ND 
58502
    Florida/Virgin Islands
    Luis Carrero, 2629 Waverly Barn Road, Davenport, FL 33897
    Ohio
    Christie Hooks, 200 North High Street, Room 507, Columbus, OH 43215
    Georgia
    Deborah Callahan, 355 E. Hancock Avenue, Suite 300, Athens, GA 
30601-2768
    Oklahoma
    David M. Moore, 200 South 3rd, McAlester, OK 74501
    Hawaii
     Alvin Okamoto, Room 311, Federal Building, 154 Waianuenue Avenue, 
Hilo, HI 96720
    Oregon
    Barrie Lasure, 625 S.E. Salmon Ave., Suite 5, Redmond, OR 97756
    Idaho
    Roni Atkins, 9173 West Barnes, Suite A1, Boise, ID 83709
    Pennsylvania
    Vacant
    Illinois
    Rob Loschen, 2118 West Park Court Suite A, Champaign, IL 61821
    Puerto Rico
    Vacant
    Indiana
    Rochelle Owen, 5975 Lakeside Boulevard, Indianapolis, IN 46278
    South Carolina
    Cathy Seawright, 1835 Assembly Street, Room 1007, Columbia, SC 
29210
    Iowa
    Eric Ulrichs, 709 S. Iris St., Suite 103, Mt. Pleasant, IA 52641
    South Dakota
    Christine Sorensen, 1717 N. Lincoln, Suite 102, Pierre, SD 57501
    Kansas
    Daniel Fischer, 3705 Miller Parkway, Suite A, Manhattan, KS 66503-
7604
    Tennessee
    Robert Connely, 3322 West End Avenue, Suite 300, Nashville, TN 
37203
    Kentucky
    Vacant
    Texas
    Anita Sprankle, 11930 Vista del Sol, Suite C, El Paso, TX 79936
    Louisiana
    Cathy Beales, 1803 Trade Drive, P.O. Box 1990, Ruston, LA 71273
    Utah
    Perry Mathews, 302 E. 1860 Street, Provo, UT 84606
    Maine
    Milton Ross, 735 Main Street, Suite 1, Presque Isle, ME 04769
    Vermont/New Hampshire
    Sherry Paige, 89 Main Street, 3rd Floor City Center, Montpelier, VT 
05602
    Massachusetts/Rhode Island/Connecticut
    Jennifer Lerch, 451 West Street, Suite 2, Amherst, MA 01002
    Virginia
    Jerry Outlaw, 100 Dominion Drive, Farmville, VA 23901
    Michigan
    Wendy Sexton, N16550 County Road 563, Powers, MI 49874
    Washington
    Paul Johnson, 1835 Black Lake Boulevard, S.W., Suite B, Olympia, WA 
98512
    Minnesota
     Adam Czech, 410 Farm Credit Service Building, 375 Jackson Street, 
St. Paul, MN 55101
    West Virginia
    Jesse Gandee, 1 Ball Park Drive, McMechen, WV 26040
    Mississippi
     Betty Price, Suite 831, Federal Building, 100 West Capitol Street, 
Jackson, MS 39269
    Wisconsin
    Donna Huebner, 603-B Lakeland Road, Shawano, WI 54166
    Missouri
     Lue Lockridge-Lane, 601 Business Loop 70 W., Suite 235, Columbia, 
MO 65203-2546
    Wyoming
    Ann Stoeger, 508 N. Broadway, Riverton, WY 82501
    Montana
    James ``J.P.'' Pendleton, 2229 Boot Hill Court, Bozeman, MT 59715

    Thank you for the opportunity to be here today, Mr. Chairman. I 
appreciate the opportunity to talk about Rural Development programs and 
our commitment to job creation in Indian Country. I look forward to 
addressing any questions you and other members of the Committee might 
have.

    The Chairman. Thank you very much, Mr. O'Brien, for your 
statement.
    Mr. Blackwell, please proceed with your remarks.

  STATEMENT OF GEOFFREY C. BLACKWELL, CHIEF, OFFICE OF NATIVE 
     AFFAIRS AND POLICY, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Blackwell. Chairman Akaka, Vice Chairman Barrasso, 
Senator Franken, Senator Udall, members of the Committee, 
hesci, aloha and thank you for the opportunity to return and 
testify today about the importance of broadband infrastructure 
to the economic opportunities for Native America and the 
Commission's efforts to work with Native leaders to deploy 
broadband and other communications services.
    I previously testified to the Committee that the lack of 
communications services in Indian Country is alarming. Our most 
recent reliable census data indicates a basic telephone service 
penetration rate of only 67.9 percent. And evidence indicates 
even more troubling, a broadband penetration rate of less than 
10 percent on Tribal lands.
    The work of the Office of Native Affairs and Policy is a 
new strategic partnership in which we exercise the trust 
relationship that the Commission shares with Tribal nations. In 
our work, we have heard the following key points directly from 
Tribal leaders. Virtually no critical infrastructure has come 
to Tribal lands without Federal investment, oversight and 
regulation.
    There are numerous and comprehensive communications needs 
throughout Indian Country. And there is great diversity within 
those critical needs. It is clear that one size fits none. 
Broadband is a predicate to thriving communities and an 
environment of economic opportunities. That is, broadband 
enables the provision of quality health care, education, public 
safety and jobs.
    Broadband can also empower the opportunities of hope by 
keeping young and old generations connected in community 
culture. Perhaps most importantly, broadband must be available, 
accessible and affordable to meet its great promise for Tribal 
nations and Native communities.
    Under the leadership of Chairman Genachowski, with the 
long-time dedication of Commissioner Copps and with the 
involvement of the entire Commission, and all of its bureaus 
and offices, there is a new focus on Native issues at the 
Commission. We have engaged in discussions that have led us to 
a better understanding of some of the greatest challenges 
facing Native communities. We have spoken at length with Tribal 
leaders about the interrelated nature of broadband deployment, 
overall community well-being and economic development.
    The term economic development raises many different 
viewpoints and opinions. We have spoken with Tribal nations on 
those many different kinds of economies, those with small, 
fragile or unstable economies, those with stable but 
undiversified economies, and those with diverse economies with 
broad capabilities. Economic opportunities germinate and grow 
in a safe, educated and healthy environment. And broadband can 
create a more level playing field for Tribal economies. 
Broadband has become the linchpin for creating the stability 
within communities that fosters the opportunities for economic 
empowerment. That is, workforces can be educated be educated or 
trained and recruited at a distance with broadband, health care 
and public safety services supported by robust broadband 
networks provide the stability that outside corporate partners 
seek when looking to locate in or partner with Tribal 
communities. When research is available and marketplaces 
accessible online, goods and services can be brought to the 
global buyer.
    Through opportunities based on their sovereign status, 
Tribal nations can be potent partners in strategic development 
alongside industry teammates. In sum, broadband infrastructures 
that employ to engage all the needs of a Native community, 
Tribal-centric employment, are investments that have a much 
greater chance to see successful returns and ultimate 
profitability.
    Several Tribes have said that the term economic development 
is often taken to mean merely chasing the dollars or simply 
looking for the next contract or sales opportunity. In other 
words, a short-term fix approach and not a true, lasting 
solution. They have explained that the Development of their 
economies is a better approach to the efforts to create 
opportunities for economic empowerment by building systems of 
governance that engage with industries, demonstrate stability 
and encourage the deployment of services.
    In closing, the Commission is engaged in several efforts to 
create opportunities for just such Tribal government 
engagement, designed to bring the benefits of 21st century 
communication services to Tribal lands. For example, the 
recently-released Connect America Fund Order will, for the 
first time, require all carriers providing voice and broadband 
services on Tribal lands to undertake meaningful engagement 
with Tribal governments on a variety of broadband-deployment 
related priorities.
    Also for the first time, the Commission created a Tribal 
Mobility Fund dedicated to the provision of wireless services 
on Tribal lands. This Tribal Mobility Fund, as a part of the 
Connect America Fund, will provide an allocation of $50 million 
in its first year and an allocation thereafter of up to $100 
million per year. This is of course just one example of the 
multiple proceedings underway at the Commission.
    Mvto, mahalo and thank you again for the opportunity to 
testify this afternoon. I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Blackwell follows:]

 Prepared Statement of Geoffrey C. Blackwell, Chief, Office of Native 
         Affairs and Policy, Federal Communications Commission
    Chairman Akaka, Vice Chairman Barrasso, and Members of the 
Committee, hesci, aloha, and thank you for the opportunity to testify 
today about the importance of broadband infrastructures to the economic 
opportunities for Tribal Nations and Native Communities, and the 
Commission's efforts to work with Native leaders to deploy broadband 
and other services.
    In October, I told the Committee that the lack of all 
communications services in Indian Country is alarming. Our most recent 
reliable census data indicates that over 70 years of development and 
expansion of the telecommunications industry has resulted in only a 
67.9 percent basic telephone service penetration rate. I shared that 
the statistics for broadband penetration are even more troubling--less 
than 10 percent of residents on Tribal lands have access to the 
lifeblood of our 21st century economy, educational opportunities, 
health care, and public safety. Behind these too familiar statistics 
lurks a stark and complex reality. A consequence of the unfortunate 
history that Indian Country has endured is an endemic lack of many 
critical infrastructures in Tribal and Native communities.
    It is especially important, in the context of this hearing, to 
reiterate certain key points. Virtually no critical infrastructure has 
come to Tribal lands without federal investment, oversight, and 
regulation. There are numerous and comprehensive communications needs 
throughout Indian Country, and there is great diversity within those 
critical needs. It is clear that ``one size fits none.'' Broadband, the 
most critical 21st century infrastructure, is the predicate to thriving 
communities and an environment of economic opportunity. That is, 
broadband enables the provision of quality health care, education, 
public safety, and jobs. Broadband can also empower the opportunities 
of hope, by keeping young and old generations connected in community 
culture. Perhaps most importantly, broadband must be available, 
accessible, and affordable to meet its great promise for Tribal Nations 
and Native Communities. We have heard these key points directly from 
Tribal leaders throughout Native America.
Broadband Deployment and Economic Opportunities in Indian Country
    On many occasions, we have spoken at length with Tribal leaders 
from across the country about the inter-related nature of broadband 
deployment, overall community well-being, and economic development. We 
have spoken with Tribal Nations with small, fragile, or unstable 
economies. We have also spoken with those who have stable, but 
undiversified economies, and those with diverse economies with broad 
capabilities. We have engaged in discussions that have led us to a 
better understanding of some of the greatest challenges facing Tribal 
leaders.
    We have been told many times that Tribal Nations cannot develop the 
potential of their economies and communities without the proper tools, 
and that the tool of broadband must be more affordable and accessible. 
The term ``economic development'' raises many different viewpoints and 
opinions. Most importantly, broadband has become the linchpin to 
creating the stability within a community that fosters the 
opportunities for economic empowerment.
    Some Tribes have posited that ``economic development'' means merely 
chasing the dollars, or simply looking for that next contract or sales 
opportunity. They explain how, as a Washington buzz-word, ``economic 
development'' connotes a short-term fix approach and not a true lasting 
solution. Tribal Nations have also explained that the development of 
their economies is more appropriately approached through efforts to 
create opportunities for economic empowerment by building systems of 
governance that engage industries, demonstrate stability, and encourage 
the deployment of services. Economic opportunities germinate and grow 
in a safe, educated, and healthy environment. Workforces can be 
educated or trained and recruited at a distance with broadband. 
Healthcare and public safety services supported by robust broadband 
networks provide the stability that outside corporate partners seek 
when looking to locate or partner in Tribal communities. When research 
is available and marketplaces accessible online, goods and services can 
be brought to the global buyer. Along with industries, Tribal Nations 
can be potent partners in strategic development through certain 
opportunities based on their sovereign status. As a federal economic 
regulatory agency, the Commission is engaged in efforts throughout the 
agency to create opportunities for just such Tribal government 
engagement. In sum, broadband infrastructures that are deployed to 
engage all the needs of a Native community--''Tribal-centric'' 
deployment--are investments that have a much greater chance to see 
successful returns and ultimate profitability.
    In our work with Tribal leaders, we have heard many priorities and 
concerns, including those associated with broadband speed and 
reliability. Common priorities include the ability of Tribal entities 
to become their own regulated service providers in the future and to 
access new opportunities in mobile services. A major concern is the 
accurate measurement of the actual state of broadband availability on 
Tribal lands. Many Tribal and Native community leaders have articulated 
concerns about both the depth and accuracy of the data on the state of 
services on their lands. They have asked how this data is verified by 
the state and federal agencies involved in the field. This Committee 
articulated this same concern in October. While attending the late 
September Native American Summit in Salt Lake City, we witnessed 
representatives of the Goshute Confederated Tribes explain to the Utah 
state broadband mapping manager that the gross overestimation of 
wireless broadband coverage on the Goshute Reservation actually 
precluded the Tribe from applying for federal grants and loans for a 
Tribal project that would address the lack of services. The Utah state 
broadband mapping coordinator explained that the federal grant did not 
have funding to verify the data. Increased coordination among the 
relevant federal agencies and the meaningful involvement of Native 
Nations, embracing them as partners, would begin to address these 
unintended consequences and barriers.
Tribal Engagement as a Critical Component to Broadband Deployment
    In October, and this past April while before the Senate Commerce 
Committee, I explained the purposes of the Office of Native Affairs and 
Policy. Our work with Tribal Nations is a new strategic partnership, 
one in which we effectuate and exercise the trust relationship that the 
Commission shares with Tribal Nations. The enormity of our mission is 
vast. Changing our rules alone is not enough. Complex problems require 
new approaches and mechanisms, and active efforts both in Washington 
and far into the field, to develop and coordinate well thoughtout 
solutions. Our approach is to work together to identify and remove 
barriers to solutions and build models with Tribal Nations that engage 
their core community or anchor institutions. As Tribes govern with a 
unique understanding of their communities, their vested and active 
involvement is critically important to finding lasting solutions in 
their communities. We seek to place Native Nations themselves in the 
center of those solutions, whether it is through actual self-
provisioning of communications services or through new ``Tribal-
centric'' methods of engagement and deployment with industry, public, 
or private partners. These models must respect the cultural values and 
sovereign priorities of Tribal Nations and be infused with the local 
knowledge that will lead to better opportunities for successful 
deployment in Native communities.
    The Office is responsible for developing and driving a Tribal 
agenda at the Commission and serves as the Commission's primary point 
of contact on all Native issues. To fulfill our mission and transform 
the communications landscape, our work as an Office cannot be as just 
another outsider from Washington. Instead, the Office must be a 
knowledgeable and respected Indian Country insider. We must foster an 
expert understanding and familiarity with Native America and maintain a 
firsthand view of the complexity of the problems. Within our first five 
quarters of operations, we met with Tribal leaders in Arizona, 
California, Idaho, Montana, Nevada, New Mexico, North Dakota, Oklahoma, 
Oregon, South Dakota, Utah, and Washington, as well as within the 
Hawaiian Home Lands. We went to some of the most unserved areas of the 
Nation. Other remote and underserved areas, including those within 
Alaska, are at the top of our future travel priorities. We will 
continue to go deep into the Native Nations, meeting collectively and 
individually with Tribal leaders, Tribal Councils, Native associations, 
Triballyowned and operated communications providers, Tribal 
broadcasters and broadband providers, as well as with Native consumers 
and businesses.
    We logged thousands of miles and traveled to places where the 
Commission has never been before, experiencing the lack of connectivity 
from the other end of the digital divide, and seeking the input of 
American Indian, Alaska Native, and Native Hawaiian leaders. In Native 
Communities, one sees the human side of the lack of communications and 
broadband services, and the limitations of connectivity, speed, and 
reliability. We have visited some of the most remote schools in the 
country, engaging in distance education discussions from classrooms at 
the Native end of the signals. Also at the Native end of the line, we 
experienced the concerns raised by lower speed and lower resolution 
Internet connections while sitting alongside an oncology patient in her 
telemedicine distance diagnosis session. On many occasions, we saw 
impressive solutions juxtaposed with overwhelming needs and challenges.
The Commission's Priorities on Tribal Lands in 2011 and Beyond
    Under Chairman Genachowski's leadership, and with the involvement 
of the entire Commission and all of its Bureaus and Offices, the 
Commission has launched a number of groundbreaking rulemaking 
proceedings with Tribal engagement and inclusion at their very core. 
From rules reforming universal service and expanding broadcast 
opportunities, to proposed rules for new mobile wireless licensing 
opportunities, to an omnibus inquiry on a range of issues related to 
broadband adoption and deployment on Tribal lands, these proceedings 
will in part serve as the foundation for the engagement of Native 
Nations that is critical to the deployment of communications 
infrastructure and the resulting availability of broadband and advanced 
communications services on Tribal lands.
The Connect America Fund Order and Further Notice of Proposed 
        Rulemaking
    On October 27th, the Commission comprehensively reformed the 
universal service and intercarrier compensation systems by creating a 
new Connect America Fund. For the first time, meaningful engagement 
with Tribal governments will be required of all carriers providing 
voice and broadband services on Tribal lands, including both 
communications providers currently providing service and those 
contemplating the provision of service on Tribal lands. Engagement must 
include, for example, a needs assessment and deployment planning with a 
focus on Tribal community anchor institutions, and feasibility and 
sustainability planning. Also for the first time, the Connect America 
Fund will secure universal service support for mobility directly, 
rather than as a side effect of the competitive eligible 
telecommunications carrier (ETC) system, by the establishment of a 
Mobility Fund and a Tribal Mobility Fund. Phase I of the Mobility Fund 
will provide $300 million in one-time support, with an additional $50 
million allocated to the Tribal Mobility Fund. Phase II of the Mobility 
Fund will provide ongoing, recurring support for mobile service, with 
an annual budget of $500 million, of which up to $100 million will be 
designated annually for the Tribal Mobility Fund. Carriers seeking to 
serve Tribal lands may participate in both phases of the general 
Mobility Fund and the Tribal Mobility Fund. In addition, Tribally-owned 
or controlled providers seeking general or Tribal Mobility Fund Phase I 
support for the purpose of providing service on Tribal lands will 
receive a 25 percent bidding credit, thus increasing the likelihood 
that Tribally-owned or controlled entities will receive funding and 
creating an atmosphere conducive to Tribal economic opportunity and 
development.
The Wireless Spectrum Tribal Lands Notice of Proposed Rulemaking
    If Tribally-owned or controlled entities are to realize the 
benefits of the general Mobility Fund and the Tribal Mobility Fund, 
Tribal governments must have access to robust wireless spectrum. Native 
Nations have asked the Commission for greater access to such spectrum 
to meet the challenges of terrain and distance that many Native 
communities face and, for some time now, the need for this action has 
been critical. On March 3rd, the Commission adopted a Notice of 
Proposed Rulemaking (NPRM) to promote greater use of spectrum to help 
close the communications gap on Tribal lands and to ensure that Native 
governments are at the center of the decisionmaking process. This NPRM, 
one of the most important requests from Native Nations in the last 
decade, strives to put licenses in the hands of those who will value 
the spectrum and build out on Tribal lands. Three of the five proposals 
launched in the NPRM would create new opportunities for Native Nations 
to gain access to spectrum through Commercial Mobile Radio Services 
licenses, while the other two proposals are designed to create new 
incentives for existing licensees to deploy wireless services. This 
proceeding is pending at the Commission.
The Rural Radio Tribal Priority Order
    Tribal governments want to provide information and community news 
to their people, and are looking at radio programming to promote and 
preserve Native culture and language, and to advance cultural dialogue. 
KUYI on the Hopi Reservation, KLND on the Standing Rock Reservation, 
KIDE on the Hoopa Valley Reservation, and KWSO on the Confederated 
Tribes of Warm Springs Reservation are prime examples of such cultural 
enterprise. Last year, the Commission took steps to address the 
imbalance in the number of radio stations licensed to Native Nations 
and communities, as compared to the rest of the country, when it 
adopted an historic Tribal Priority designed to award a decisive 
preference to any federally recognized American Indian Tribe or Alaska 
Native Village seeking to establish its first non-commercial radio 
station on its Tribal lands. The Tribal Priority was greeted with 
enthusiasm by Tribal governments, but it was noted that certain Native 
Nations, because of their historical or geographic circumstances, might 
not be able to take advantage of the priority. In a Second Report and 
Order adopted on March 3rd, the Commission addressed these special 
circumstances by adopting provisions to address the needs of non-landed 
Native Nations and those with small or irregularly shaped lands that 
make it difficult to meet some of the requirements of the Tribal 
Priority. In addition, the Commission adopted a Notice of Proposed 
Rulemaking seeking comment on proposals to apply the Tribal Priority to 
certain commercial FM channel allotments and potentially obviating the 
need to go to auction. An order in this proceeding is currently on 
circulation at the Commission, and the hope is that these new 
mechanisms can help Native Nations deploy services in this critical and 
widely adopted media technology, as they also build designs and 
resources for new advanced broadband platforms.
The Native Nations Notice of Inquiry
    The Commission has said on many occasions that broadband is 
indispensable infrastructure for economic growth and job creation, and 
nowhere is that need more acutely felt than on Tribal lands. The lack 
of robust broadband services--and, in fact, even basic communications 
services--contributes to the challenges Native Nations face in building 
strong economies with diverse businesses and development projects. On 
March 3rd, therefore, the Commission launched a broad-based inquiry 
into a wide range of communications issues facing Native Nations--an 
inquiry that will provide a foundation for updating the Commission's 
rules and policies to provide greater economic, market entry, and 
communications adoption opportunities and incentives for Native 
Nations. The result of a broad collaborative effort across the 
Commission, led by the Office of Native Affairs and Policy, the Notice 
will lay the groundwork for policies that can help Native Nations build 
economic and educational opportunities for their own Tribal lands. The 
Notice seeks comment on the best ways to support sustainable broadband 
deployment, adoption, and digital literacy training on Tribal lands. 
Among other important questions, the Commission asks about the 
possibility of expanding the Tribal Priority concept into a Native 
Nations Priority, to identify and remove barriers to entry, rather than 
using a case-by-case waiver approach, thus making it easier for Native 
Nations to provide other services--wireless, wireline, and satellite--
to their communities. The Commission also asks about opportunities to 
use communications services to help Native Nations address public 
safety challenges on Tribal lands, including the broad lack of 911 and 
E-911 services, and the needs of persons with disabilities on Tribal 
lands.
    Recognizing that, given their unique challenges and significant 
obstacles to broadband deployment, Native Nations need substantially 
greater financial support than is presently available, the Notice of 
Inquiry also seeks comment on a recommendation of the National 
Broadband Plan to establish a Native Nations Broadband Fund. The 
National Broadband Plan notes that grants from a new Native Nations 
Broadband Fund could be used for a variety of purposes, including 
bringing high-capacity connectivity to governmental headquarters or 
other anchor institutions, deployment planning, infrastructure build 
out, feasibility studies, technical assistance, business plan 
development and implementation, digital literacy, and outreach. In the 
Notice of Inquiry, the Commission seeks comment on a number of issues 
associated with the establishment of the Native Nations Broadband Fund, 
including the need for such a fund, the purposes for which it would be 
used, and the level of funding. The public comment period for the 
Notice has ended, and we are in the process of assessing the record and 
determining next steps for each of the issues addressed in the Notice.
The Low-Income Program Notice of Proposed Rulemaking
    The Commission has long recognized the unique and dire economic 
circumstances many Tribal Nations and Native Communities face and has 
sought to alleviate the issue of affordability through the Lifeline and 
Link Up programs of the universal service fund. But with a telephone 
penetration rate hovering below 70 percent and a broadband penetration 
rate well below ten percent, much remains to be done. According to Gila 
River Telecommunications, Inc., a Tribally-owned telecommunications 
company, the telephone penetration rate for the Gila River Indian 
Community stands at 86 percent, still well below the national average 
of 98 percent but significantly above the average on Tribal lands. Gila 
River attributes its success in expanding the reach of telephone 
service largely to Lifeline, given that roughly 91 percent of the 
Community's elders participate in Lifeline. On March 3rd, the 
Commission adopted a Notice of Proposed Rulemaking in which it proposes 
to reform and modernize Lifeline and Link Up--issues of great interest 
to Native Nations. The Commission is preparing to take action in the 
near future to address many of the issues raised in the Notice of 
Proposed Rulemaking.
The FCC-Native Nations Broadband Task Force
    One of the top requests from Native Nations in the National 
Broadband Plan was the creation of a new FCC-Native Nations Broadband 
Task Force that would ensure that the Commission's consultation with 
Native Nations is an ongoing, continuous dialogue and a shared effort 
between partners. Chairman Genachowski fulfilled this request when, on 
March 3rd, he appointed to the Task Force 19 members representing 
Native Nations and 11 members representing Bureaus and Offices across 
the Commission. The Task Force will ensure that Native concerns are 
considered in all relevant Commission proceedings and will work to 
develop additional recommendations for promoting broadband deployment 
and adoption on Tribal lands.
A New Federal Interagency Tribal Broadband Working Group
    The Office will also coordinate a new federal interagency broadband 
working group that we will initiate by the end of this year. This 
interagency working group will coordinate both internally and directly 
with Tribal Nations, the Task Force, and other Native Community 
institutions on broadband-related policies and programs. The working 
group will be comprised of representatives from other federal agencies 
concerned with Tribal Nations and Native Communities with missions on 
related to broadband and communications deployment, such as education, 
health, public safety, energy, cultural preservation, and economic 
empowerment.
Conclusion
    All of these efforts will culminate in more efficient ways of 
working with our Tribal Nation and Native Community partners, the 
industries, and the institutions of Indian Country. We have heard 
several recurring themes in our conversations with Native leaders--
continue to meet with us, listen to us, and use what we tell you to 
bring communications on Tribal lands into the 21st century. One of our 
remaining top priorities is to overhaul, update, and increase the 
collaborative value of the Commission's Indian Telecom Initiatives, or 
ITI program. We look forward to increasing the effectiveness and value 
of these regional workshops, trainings, consultation, and networking 
events. We also look forward to infusing this program with the new 
prerogatives of Tribal engagement and economic empowerment.
    The overarching message we hear from Tribal leaders is that if 
consultations are to be successful, and if efforts to inform, educate, 
and put Tribal Nations at the center of the decisionmaking process are 
to succeed, we must do our work largely within their communities. 
Tribal leaders have told us that, in order to best help them solve 
communications problems, we must work with them where the problems 
exist, see the problems first-hand, help them engage with government 
and industry institutions, and endeavor to find the solutions in 
concert with them. We welcome all of these opportunities.
    Mvto, mahalo, and thank you again for the opportunity to testify 
this afternoon. I look forward to answering any questions you may have.

    The Chairman. Thank you very much, Mr. Blackwell, for your 
remarks.
    Mr. O'Brien, many Native-serving utility companies that use 
the RUS program have relied heavily on funds from the Universal 
Service Fund. How does the new FCC order issued this month 
affect the availability of these companies to use the RUS 
program now?
    Mr. O'Brien. Thank you for that question, Chairman. You are 
correct that most of the lenders of the RUS, in particular the 
telecommunications program, also utilize the Universal Service 
Fund as part of their revenue package. In fact, 99 percent of 
the 435 total lenders utilize the USF.
    We were happy to and gratified that the FCC invited USDA to 
provide an analysis of the proposed rule on USF, which we did, 
and provided it into the public comment period. And now as we 
have received, just within the last two weeks, the 700-page 
rule, our folks in RUS are analyzing the rule for its effect on 
our borrowers.
    We have already been in contact with a number of our 
borrowers and we have heard concern. We are tracking that very 
closely and will take their input as we consider the effect on 
our portfolio.
    At the end of the day, our responsibility is to ensure that 
the portfolio of RUS is sound and that we have a vital program 
into the future.
    The Chairman. Thank you very much. I will have further 
questions. But let me defer and ask my colleagues for questions 
that they may have. Senator Udall?
    Senator Udall. Thank you very much, Mr. Chairman.
    Deputy Under Secretary O'Brien, as you said in your 
statement, you have excellent staff out at your State offices. 
I know at least in New Mexico, where Terry Bruner has been 
working hard to present development opportunities and programs 
to the Tribes and been working closely with them, there have 
been some real successes out there. Can you tell me how my 
Congressional office can help increase communication between 
the Tribes and USDA Rural Development and how well can the 
Tribes work to be certain that they have all of the USDA 
programs, know what they are and be able to access them?
    Mr. O'Brien. I appreciate that question, Senator. Certainly 
as I mentioned, an absolute goal of Secretary Vilsack to have a 
very robust relationship and consultation as we set our 
regulations and rules. We would appreciate the support of your 
office or any of the offices represented on this Committee.
    We have, as I mentioned, in each of the State offices, in 
particular active in those States that have a significant 
American Indian/Alaska Native population, a Native American 
coordinator. We also have an Office of Tribal Relations right 
here in Washington, D.C., to ensure that all of the programs 
within the broad spectrum of USDA take into consideration the 
effects of programs, processes that were presented and are 
trying to be improved. In fact, essentially, every one of the 
regulations that we undergo at Rural Development, one of the 
places that it goes through for approval is the Office of 
Tribal Relations, to get comment from the people there who are 
expert in what can be very complicated issues.
    We continue to plan to grow the consultation process that 
we developed in the last two years, and we welcome your 
office's participation and your comments on how we can improve 
that
    Senator Udall. Thank you very much.
    This one is to Mr. Blackwell. I am pleased that the recent 
Universal Service Fund reforms will directly address challenges 
facing Indian Country. The Tribal Mobility Fund and the Tribal 
Engagement Requirements I think are positive steps in the right 
direction.
    Mr. Blackwell, how do you envision the Tribal Engagement 
Requirements will work in practice, when it comes to rolling 
out broadband to Native American communities? And how soon 
would the proposed Tribal Mobility Fund begin expanding 
wireless access to under-served areas?
    Mr. Blackwell. Thank you, Senator. To begin with the second 
part of your question first, perhaps, the Tribal Mobility Fund, 
the first year of the Mobility Fund was actually $350 million, 
$50 million of which is allocated to Tribal lands. Tribal lands 
are of course eligible for the initial $300 million as well, 
and Tribal entities. The goal is to have that Mobility Fund 
Phase 1 in 2012, and to time the Tribal Mobility Fund in such 
time afterwards that, I am sorry, Mobility Phase 1 timed to 
occur in 2012 with disbursements in 2013, and to time the $50 
million Tribal Mobility Fund to follow thereafter. In time 
analysis can be done about the initial $300 million so that the 
$50 million can be effectively utilized.
    To answer the first part of your question, the Connect 
America Fund articulates what sort of discussions must include, 
at a minimum, in the Tribal engagement procedures. And directly 
from the order, there are just a few, very quickly, at a 
minimum, such discussions must include a needs assessment and 
deployment planning with a focus on Tribal community anchor 
institutions, feasibility and sustainability planning, 
marketing services in a culturally-sensitive manner, rights of 
way processes, land use permitting, facility siting, 
environmental and cultural preservation review processes and 
compliance with Tribal business and licensing requirements.
    The order envisions an annual certification both to the 
Commission and to Tribal governments. And we envision, the 
order also envisions that the Office of Native Affairs and 
Policy, in coordination with the Wireless Bureau to utilize our 
delegated authority to develop specific procedures for this 
Tribal engagement as well.
    Senator Udall. Thank you for all your hard work over there 
at the FCC. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall.
    Senator Franken, your questions.
    Senator Franken. Thank you, Mr. Chairman.
    Mr. O'Brien, I want to thank you for bringing up Bois Forte 
in your written testimony. And I want to thank, more 
importantly, USDA for what you have done in partnership with 
the Bois Forte Reservation. I have seen first-hand how economic 
development has tremendously benefitted that community and 
Chairman Leecy should be commended for his leadership and 
vision.
    I sit on both the Energy and obviously Indian Affairs 
Committee. Indian energy is of particular interest to me. 
Tribes and Bands in Minnesota have strong interest in 
developing energy resources on their lands. But year after 
year, they go unused and Tribal communities continue to suffer 
from extremely high rates of unemployment. In Minnesota, we 
have a lot of biomass resources. I think you talked about a 
project in California, a biomass project there. What is that? 
What is that project? What steps has your department taken to 
reduce administrative and regulatory hurdles that stand in the 
way of their businesses and like Senator Udall asked, how can 
my office help in facilitating getting biomass projects going 
in Minnesota?
    Mr. O'Brien. Thank you, Senator, for your question. We have 
a suite of energy programs in Rural Development and actually a 
few other agencies that were created primarily in the 2008 Farm 
Bill. I think the program that you are referring to is the 
Biomass Crop Assistance Program, which essentially supports 
efforts to utilize biomass to create energy. In fact, we were 
able to award a BCAP award to Dakota Energy in Shakopee, and 
innovative combined heat and power plant which generates 
electricity and heat by burning agriculture byproducts and 
grown energy crops to create heat.
    Senator Franken. In Minnesota?
    Mr. O'Brien. Yes, sir. So there are not as many examples 
as, frankly, we would like.
    Senator Franken. That is essentially burning biomass
    Mr. O'Brien. That is right, to create energy, yes.
    Senator Franken. Energy and heat? Combined energy and heat?
    Mr. O'Brien. Yes, that is correct. And that is what the 
BCAP program is designed for. And there are some examples of it 
being utilized on Tribal lands, but not as many as we would 
like to see, because of some of the challenges, as the Chair 
pointed out in his statement. We have worked through the 
consultation process in all the regulatory, the regulatory 
process for all the Farm Bill programs, we utilized seven 
regional consultations to ensure that our programs fit and work 
on Tribal lands. I won't sit here and say they are perfect 
right now.
    Senator Franken. Well, I would love to have my office work 
with you on this. We do have a lot of biomass. And biomass is, 
you can do more than just burn it, you can burn it in more 
sophisticated ways, like gasification, more efficient ways. 
There is a lot you can do with biomass.
    Mr. O'Brien. Absolutely.
    Senator Franken. Thank you.
    Mr. Blackwell, in your testimony you state that less than 
10 percent of residents in Tribal lands have access to 
broadband. But you also discuss an instance in Utah where 
inaccurate data precluded a Tribe from receiving Federal grants 
or loans because it was overestimated what they had, right?
    Mr. Blackwell. Yes.
    Senator Franken. How did the Utah State broadband mapping 
manager come up with their estimates?
    Mr. Blackwell. As I understand from that situation, the 
Utah State broadband mapping, she indicated that it was 
receiving information directly from the providers. The question 
that came from the representatives was how that data might, was 
it double checked and how was it double checked. And she 
indicated that there was not funding in the Act to be able to 
do that.
    Senator Franken. So how is the FCC addressing that problem?
    Mr. Blackwell. I thank you very much for the question. 
Based on my experience, there are a number of Tribal leaders 
who also would thank you for that question.
    We work in concert with the NTIA, the Department of 
Commerce, under a memorandum of understanding, it is their 
responsibility under the Broadband Data Improvement Act for the 
National Broadband Map. And we provided technical assistance to 
them. Our office in particular has met with them on a couple of 
occasions to provide them with feedback and some suggestions.
    As I stated before with this Committee once before, I do 
believe that there is a way in which we might be able to work 
in concert to involve Tribal governments so that they have an 
opportunity for a voice there as well.
    Senator Franken. Maybe I didn't understand the full answer. 
That is what you are doing?
    Mr. Blackwell. Yes, sir.
    Senator Franken. That is it? Okay, well, I appreciate your 
answer. I am not sure that is sufficient.
    Mr. Blackwell. Well, we can certainly look into doing more, 
sir.
    Senator Franken. Thank you, sir. Thank you, Mr. Blackwell. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Mr. Blackwell, some Native telecom providers, especially in 
high cost areas like Hawaii and Alaska, have relied heavily on 
the USF to secure funding through programs like the RUS program 
at Agriculture. How will the FCC ensure that these RUS carriers 
will continue to provide services to Native people in these 
areas? I say that knowing full well that in the case of the 
Hawaiian Homelands Commission that that was set up by an act of 
Congress in 1920. And so I am interested in what your answer 
might be on this question.
    Mr. Blackwell. Well, to begin with, Hawaii, the entities 
that are required to be engaged in the engagement that I spoke 
about earlier in Hawaii, the Department of Hawaiian Homelands 
and the Office of Hawaiian Affairs. Most Tribal providers are 
rural rate of return companies and the Commission has been very 
sensitive to the needs of these companies to both repay their 
RUS loans and to be in a position to continue borrowing to 
build out for their broadband networks.
    Therefore, hopefully the bottom line is there are no 
immediate drastic cuts. Recognizing that sudden changes would 
be especially difficult for these small carriers serving remote 
areas, the Commission has avoided slash cuts and established a 
glide path, phasing in most of the changes to the carrier's 
Universal Service support over a period of years.
    In the instance of Tribally-owned and operated 
telecommunications providers, we have within our further Notice 
of Proposed Rulemaking specific questions about potential 
impact on those entities in particular, and the effect of the 
reforms on them as well.
    The Chairman. Well, thank you very much.
    Now I would like to move on to the second panel. But I want 
to thank you very much for your responses and I look forward to 
continuing to work with you on these matters for Tribes and 
indigenous peoples. Thank you very much.
    I would like to invite the second panel to the witness 
table. Serving on our second panel is the Honorable Jefferson 
Keel, President of the National Congress of American Indians. 
Welcome.
    Mr. Keel. Thank you, Mr. Chair.
    The Chairman. It is good to have you here again before the 
Committee. Will you please proceed with your testimony?

         STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, 
            NATIONAL CONGRESS OF AMERICAN INDIANS; 
            ACCOMPANIED BY JACQUELINE JOHNSON-PATA, 
                       EXECUTIVE DIRECTOR

    Mr. Keel. Thank you, Mr. Chairman.
    I want to tell you how much I am honored to be here today 
on behalf of the National Congress of American Indians. This is 
an important hearing and I want to thank you and the members of 
the Committee for your work and help in this critical 
situation.
    I want to address two primary themes in my testimony today: 
honoring Tribes as governments and program flexibility to 
increase the return on Federal investment. The members of this 
Committee know that uncertainty around Indian lands is a 
barrier to economic development that could be removed in just 
an instant. Senator Akaka, you and Representative Cole got it 
right when you said in this oped piece here that the Carcieri 
fix is a no-cost way to build Tribal economies. That certainty 
would have economic ripple effects that would be felt well 
beyond our reservations and it wouldn't cost a cent.
    On the Federal budget, we in Indian Country are in a 
challenging position after the collapse of the Super Committee. 
On the one hand, we have an Administration and Congress, 
especially the Senators on this Committee, who have fought hard 
to bring Indian Country funding to a level that has allowed us 
to see real progress. On the other hand, we have looming across 
the board budget cuts that threaten to undo all that good work.
    While the focus of this hearing is on regulatory reform, I 
must remind the Congress that the Federal Government's trust 
responsibility is not a discretionary choice: it is a solemn 
promise. We urge you to continue to fight to hold Indian 
Country budgets harmless, and we truly need increases in key 
areas like law enforcement and education.
    Also, it is critical that Congress and the Administration 
ensure equal access to Tribes in all programs. An example where 
more work would bring major improvements is the American Jobs 
Act, where including Tribes alongside States and local 
governments to protect jobs of teachers and first responders 
and build infrastructure would create significant economic 
opportunities.
    Overall, NCAI is in favor of models like Self-Determination 
and the 477 program that permit Tribes to design their own 
programs and services, build Tribal capacity and use Federal 
funding more effectively. This could be expanded across the 
board to all Federal agencies. This is exactly what we should 
be doing, spending more dollars and time on services and less 
on administrative burdens, especially in areas like 
infrastructure and energy Development.
    Indian Country has one of the youngest populations in the 
Nation with 42 percent of Native people under the age of 25. 
Tribal colleges and universities are the key to workforce 
development training for thousands of Native people and other 
rural Americans. Including the TCUs in Federal workforce 
funding would create significant opportunities for new job 
creation.
    Interpreting the Green Jobs Title of the Energy 
Independence and Security Act to include Tribal governments, 
businesses and veterans associations would allow direct access 
for programs and technical assistance that are a critical part 
of the National effort to create green jobs. The Tribal set-
aside should also be reinstituted for the YouthBuild program to 
allow Native youth to develop critical job skills.
    More than 10 years ago, the CDFI Fund reported a $44 
billion unmet need for capital in Indian Country. That number 
has only grown, and there are specific, no-cost regulatory 
fixes. We urge the Committee to work with Treasury to ensure 
Tribal Economic Development Bond funding cap limits are 
adjusted to encompass larger-scale development projects. We 
also see significant potential in the expansion of the Bureau 
of Indian Affairs guaranteed loan program to ensure access to 
surety bonding for eligible Tribal and individual Indian-owned 
construction companies pursuing high level and high value 
projects.
    Match requirements for the Native CDFIs applying for funds 
from the CDFI Fund should be eliminated or amended to allow 
Native CDFIs to use other Federal Government money such as HUD 
or USDA grants as match funds.
    The United Nations recently identified access to the 
internet as a basic human right. However, as you have heard 
already, Tribal communities continue to experience low access. 
Low cost solutions to facilitate the build-out and deployment 
of broadband internet, telephone and radio access include 
reforming USDA lending policies to ensure Tribal eligibility 
for loans, establishing interagency collaboration between the 
Departments of Treasury, Agriculture and Interior with Tribes 
to identify financing options, and urging the FCC to provide 
Tribal priority to available spectrum and offer it to Tribes at 
discounted prices.
    Expanded domestic energy production is a high priority and 
there are barriers that could be removed with a stroke of a 
pen. The BLM's discriminatory permit application fee to drill 
on Tribal trust land could be rapidly addressed by issuing a 
ruling that exempts Tribal trust land from the $6,500 or lowers 
permit fees to a level comparable with State permits.
    Tribes are eager to see passage of the HEARTH Act, which 
would allow Tribes to speed up lease approval on Tribal lands. 
We support the Tribal Energy Development and Self-Determination 
Act Amendments. This bill would reduce existing administrative 
burdens and Tribes look forward to continuing our work with 
this Committee to enact the bill.
    Once again, I want to thank you for your vision and 
focusing on the critical role Tribes can play in creating jobs 
and getting America back to work. As you know, we believe in 
Indian Country that the best social program is a good job. And 
we are certainly willing to work with you and the Committee in 
trying to get our people back to work. Thank you.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          of American Indians
Introduction
    The National Congress of American Indians (NCAI) is the 
intergovernmental body representing American Indian and Alaska Native 
tribal governments. For nearly 7 years, tribal governments have come 
together as a representative congress through NCAI to deliberate issues 
of critical importance to tribal governments and advance consensus 
policy positions for the betterment of tribal nations and peoples. NCAI 
is honored to participate in the Senate Committee on Indian Affairs 
hearing to discuss strategies to enhance job creation and economic 
development for Native peoples.
    Tribal peoples have consistently demonstrated their keen ability to 
do more with less. When the tribes are released from burdensome 
oversight and requirements and are able to exercise their inherent 
right of self-government, innovations increase and the health and 
social and economic well-being of their peoples improves. The leaders 
of NCAI--elected tribal leaders from across the nation--constantly 
remind policymakers that tribal self-determination works, but to be 
truly effective, self-determination must continue to evolve and 
replicate across other dimensions of tribal governance, especially 
regarding economic development, monetary policy job creation, and use 
of tribal land and natural resources. It is both essential and mutually 
beneficial for the Federal Government to partner with tribes to address 
the challenges and leverage the economic opportunities to strengthen 
tribal self-governance.
    For generations, tribal communities and Native peoples have faced 
destructive economic conditions that are more pronounced than those of 
the current economic crisis. While economists and policy-makers worry 
as the national unemployment rate hovers around nine percent, Indian 
communities have wrestled with the far-reaching impacts of unemployment 
rates that have well-exceeded ten percent for generations. Today tribal 
governments are facing the severe effect of the nation's present 
economic downturn has on tribal economies and employment opportunities. 
The chronic underfunding of government programs serving basic tribal 
needs is well-documented, with the result that tribal governments often 
rely on revenue from their own economic development to fund programs 
and services for their citizens, including health care, affordable 
housing, education and infrastructure programs. As the rest of America 
is being challenged to meet basic needs with fewer resources, tribal 
governments are seeking to reduce inordinate and restrictive federal 
administrative burdens that slow and prevent economic self-fulfillment.
    Tribal economies, with their dependencies on Federal Government 
support and restrictions on access to capital and other financial 
support mechanisms are more at risk during economic fluctuations than 
other governments or communities. Economic development offers tribal 
governments the opportunity to complement government services provided 
to their peoples.
    This statement addresses several areas where improved access to 
funding and technology as well as smarter regulatory and legislative 
management can support economic development and continued job creation 
in tribal nations. Those areas are: Assessments of Legislative and 
Regulatory Frameworks, Access to Capital and Access to Broadband.
I. Assessments of Legislative and Regulatory Frameworks
    Tribal nations continue to experience unemployment and poverty 
rates well above the national average. These rates are exacerbated by 
the nation's current economic hardships. With deficit reduction efforts 
underway, it is imperative that the Administration and Congress honor 
the trust responsibility by allowing tribes greater flexibility to 
develop their economies. This may be achieved in the following areas by 
providing access to and streamlining federal programs and removing 
regulatory barriers impeding and disadvantaging economic development in 
Indian Country.
A. Nation-to-Nation Partnership: The Framework for Economic Recovery
    A critical component of economic development and job creation in 
Indian Country resides in meaningful application and recognition of the 
governmental relationship between tribes and the Federal Government. 
The United States has a unique legal and political relationship with 
Indian tribes and Alaska Natives as provided in the Constitution of the 
United States, treaties, and Federal statutes. This relationship has 
been recognized by U.S. Presidents for decades and is reflected in the 
Administration's adherence to a government-to-government relationship 
and support for tribal sovereignty and self-determination--most 
recently affirmed by President Obama's November 5, 2009 memo to all 
federal agencies directing them to comply with Executive Order 13175 
(E.O. 13175). The Executive Order provides a framework for a trust 
responsibility that extends across all federal agencies and not only 
the Department of the Interior (DOI).
    As highlighted by the Office of Management and Budget, \1\ the 
requirements of the Executive Order far exceed listening sessions and 
consultations:
---------------------------------------------------------------------------
    \1\ OMB Memorandum M-10-33 Guidance for Implementing E.O. 13175, 
``Consultation and Coordination with Indian Tribal Governments'' ( July 
30, 2010)

         (A)gencies must adhere, to the extent permitted by law, to 
        specified criteria when formulating and implementing policies 
---------------------------------------------------------------------------
        that have tribal implications. Agencies must:

         <bullet> respect Indian tribal self-government and 
        sovereignty, honor tribal treaty and other rights, and strive 
        to meet the responsibilities that arise from the unique legal 
        relationship between the Federal Government and Indian tribal 
        governments;

         <bullet> with respect to Federal statutes and regulations 
        administered by Indian tribal governments, grant Indian tribal 
        governments the maximum administrative discretion possible;

         <bullet> when undertaking to formulate and implement policies 
        that have tribal implications,

            1.  encourage Indian tribes to develop their own policies 
        to achieve program objectives;

            2.  where possible, defer to Indian tribes to establish 
        standards; and

            3.  in determining whether to establish Federal standards, 
        consult with tribal officials as to the need for Federal 
        standards and any alternatives that would limit the scope of 
        Federal standards or otherwise preserve the prerogatives and 
        authority of Indian tribes.

    Congress should consider enacting legislation consistent with the 
Executive Order so that the government-wide, nation-to-nation 
partnership between the United States and all Indian tribes can be 
meaningfully and fully implemented consistently across the Federal 
Government and ensuring that Native peoples--and the United States as a 
whole--fully benefit from the economic potential presented by our 
tribal nations.
B. Recognition of Tribes as Governments in All Policy Areas
i. Disadvantages in Tribal Access to Federal Funding
    Indian tribes are polities recognized in the U.S. Constitution 
whose governments have all of the privileges and immunities routinely 
reserved to other governments in the U.S. federal structure. 
Nonetheless, tribal governments often are not given the same 
opportunities provided to state or local governments. For example, the 
large federal appropriations in the American Recovery and Reinvestment 
Act (Recovery Act) for energy programs provided $12 billion to state 
governments and less than $65 million to tribal governments even though 
a truly comparative distribution recognizing state and tribal land mass 
(not to mention immense energy potential) would have justified more 
than $600 million to tribes. In addition, tribal nations are excluded 
by law or policy from dozens of federal natural resources programs that 
provide funding to state and local governments, collectively worth 
billions of dollars every year, and including signature programs like 
the Coastal Zone Management Act, the Community Forestry Assistance Act, 
and Land and Water Conservation Fund.
ii. Disadvantages in Statutory Definitions of ``Federal Lands''
    Similarly, within the definitional sections of some federal 
statutes, tribal lands are included in the definition of ``federal 
lands'' to the detriment of tribal nations, while other statutes 
exclude tribal lands from the definition of federal lands--again, to 
the detriment of tribal nations. For example, tribal lands are included 
as federal lands in the National Environmental Policy Act, the 
Endangered Species Act, the Coastal Zone Management Act (and related 
acts) and the levying of a $6500 fee for an application for a permit to 
drill on federal lands. These inclusions result in substantial 
administrative burdens and fees not applicable to other entities and 
landowners, placing tribes at a distinct competitive disadvantage, 
while also creating statutory exclusions of tribal lands from federal 
funding. In the latter case, the exclusion of tribal lands from the 
definition of ``federal lands'' disallows tribal governments from 
funding assistance for tribal lands under the Tribal Forest Protection 
Act.
iii. Disadvantages When Tribal Governments Are Treated as Corporations
    Another problem caused by regulatory differences in treatment 
arises when tribes are not treated as governments, but are treated as 
corporations or businesses. Examples include revenue rulings from the 
Internal Revenue Service (IRS) requiring 1099 reporting from tribes for 
grants for educational and cultural support provided to their members; 
the use of ``essential government function'' analysis used to determine 
if tribal programs qualify for tax-exempt financing (which is not used 
to analyze state programs); and general taxing inequities which favor 
and allow states' encroachment into the taxing jurisdiction of Indian 
tribes.
    However, when tribes are treated as sovereign nations, and given 
the flexibility to build their own programs and develop their own 
economies, they have shown the ability to succeed. For instance, the 
Indian Self-Determination and Education Assistance Act (ISDEA), through 
the advent of 638 compacting, contributed immensely towards Indian 
tribes' ability to fund tribal public safety programs, develop their 
own educational and health standards and facilities and establish 
tribal colleges that have enabled tribes to provide higher learning 
institutions for tribal people within their own communities. Through 
greater exercise of control, and within the spirit of self-governance, 
tribal programs have not only grown, but have improved in a manner that 
reflects tribal values and addresses specific community needs.
    The disproportional, and often conflicting, treatment of tribes in 
programs throughout the Federal Government deny tribes equal standing 
with state and local governments as well as economic development 
opportunities within areas such as the immense energy and natural 
resources potential on tribal lands. Equitable treatment of all 
governmental entities and meaningful implementation of the trust 
responsibility across all federal agencies require tribal access to 
such programs equal to that of states. Tribal nations urge Congress and 
the Administration undertake studies and create taskforces to identify 
and remedy these disparities and exclusions across all federal 
agencies.
C. Streamlining Administrative Programs and Processes
i. Consolidation of Programs
    Administrative programs consolidating federal resources and 
programs, such as the Department of Justice's recently instituted 
Coordinated Tribal Assistance Solicitation (for law enforcement) and 
the Department of the Interior's 477 program (for workforce 
development), recognize the unique reliance of tribal governments on 
discretionary spending sources to fund general tribal governance, and 
affirm tribal governments' capability to manage such program areas 
responsibly. These programs allow tribes to concentrate on program 
development rather than multiple administrative burdens of grants 
management and reporting. Importantly, this streamlining is 
accomplished through the federal agencies' willingness to acknowledge 
the unique sovereign status of Indian tribes, their needs as government 
bodies, and their responsibility to develop programs and services for 
their citizens.
    Tribal nations urge Congress and the Administration to undertake 
studies and create taskforces to explore, identify and enable 
consolidations in other program areas where multiple federal agencies 
provide funding and technical assistance for similar or related 
activities, including economic development, energy development, water 
infrastructure, technical assistance and planning, energy efficiency, 
natural resources management, and education.
    One example where proposed streamlining should be effective, but 
has not been implemented is the 477 Program. Indian Country has deeply 
appreciated the Obama Administration's commitment to smarter 
government. In the current environment of constrained federal 
resources, streamlined federal programs are necessary. In this context, 
it is troubling that the Administration has thus far given tepid 
support--and in some cases presented obstacles to the success of--the 
Indian Employment, Training, and Related Services Demonstration Act of 
1992, otherwise known as the 477 Program. The program allows for the 
voluntary participation of tribes to combine formula funded federal 
grants and funds, related to employment and training, into a single 
budget with a single reporting system. The lead agency in this 
demonstration is DOI, Office of Indian Energy and Economic Development. 
The formula funded programs include those offered through the BIA, 
Department of Labor (DOL), Department of Health and Human Services 
(HHS), and the Department of Education. There is no expiration date on 
this demonstration.
    Once programs and associated funds are consolidated under 477 they 
lose their separate identities and are spent in accordance with the 
`single budget' plan. However, in a move contrary to the consolidation 
of the 477 effort, auditing provisions were changed under the March 
2009 OMB A-133 Compliance Supplement issued by DOI--requiring tribes to 
deconsolidate their federal employment funds and training funds so that 
they could be audited individually for 2010 audits. The resulting need 
to reclassify and rebook entries for reporting purposes created large 
expenses for several tribes required to recreate records for each 
individual program that was consolidated under the 477 program. The 
Administration needs to support programs like 477 as successes and work 
to ensure their longevity, as well as more widespread participation 
throughout Indian Country, while recognizing inefficiencies and 
ineffective administrative burdens that result in greater overall 
expenses.
ii. Streamlining Agency Policies and Procedures Regarding Lands and 
        Natural Resources
    The Department of the Interior (DOI) exercises substantial 
oversight in Indian affairs. For instance, the Secretary of the 
Interior must approve land into trust applications, land transfers, 
leases for business development, and the sale of natural resources. Due 
to the bottleneck created by multiple oversight requirements and the 
inability to delegate authority, this oversight process hinders 
business development and acts as a disincentive to potential 
partnerships with outside entities.
    First and foremost, NCAI recommends immediate passage of the 
legislation designed to remedy the Supreme Court's decision in Carcieri 
v. Salazar in 2009. The Court's interpretation of the Indian 
Reorganization Act of 1934 runs contrary to over 75 years of consistent 
action by the Department of Interior to utilize the IRA as a tool to 
promote economic development and self-government by Indian tribes. We 
thank the Committee for its action to approve S. 676 and urge that 
Congress pass the legislation as soon as possible.
    Additionally, tribes encourage Congress to pass the Helping 
Expedite and Advance Responsible Tribal Homeownership (HEARTH) Act, (S. 
703 and H.R. 205) which would allow tribes, if they choose, to exercise 
their political autonomy over lease approval on tribal lands. We hope 
that applications for the sale of resources will also be given priority 
treatment in the DOI's decision-making process.
    Tribes are also encouraged by the Senate Committee on Indian 
Affairs introduction of the Indian Tribal Energy Development and Self-
Determination Act Amendments (S. 1684), sponsored by Sen. Barrasso (R-
WY) to spur the vast tribal energy potential for the economic 
development of their peoples and nearby communities. This bill would 
make it easier for tribes to create tribal energy development 
organizations and enter into tribal energy resources agreements with 
the Department of Interior so that many existing administrative burdens 
would be reduced or eliminated, and tribes--not DOI--would be the 
drivers and managers of the energy resources on their lands. Tribes 
look forward to continuing work with the Committee and Congress to 
enact the bill.
iii. Leases, Resource Sales and Land Into Trust
    There is an extraordinary high backlog of leases and land into 
trust applications that have real implications for tribal economies. 
Research has demonstrated that some BIA regional offices have 
effectively prioritized land transactions with economic implications. 
\2\ The Department of Interior should be compelled to institutionalize 
these best practices at the national level. If expedited, the approval 
of development projects, timber sales, agricultural leases, leases for 
right of way (e.g., to develop telecommunications infrastructure) and 
land into trust applications would quickly and effectively jumpstart 
tribal economies.
---------------------------------------------------------------------------
    \2\ NCAI Policy Research Center, (2009), Exercising Sovereignty and 
Expanding Economic Opportunity Through tribal Land Management.
---------------------------------------------------------------------------
    The GAO issued a report that ``found no statutory or regulatory 
requirement that appraisals be used to establish lease values,'' \3\&t 
the appraisal process remains an integral component to lease approval 
under current BIA procedures. Short of eliminating the appraisal 
procedure altogether, we recommend that tribes be given the liberty to 
select their own land appraisers, providing those appraisers maintain 
the proper certification and/or licensing requirements. This policy 
change would allow the tribe to partner with DOI to expedite the 
leasing process.
---------------------------------------------------------------------------
    \3\ GAO: Report to the Subcommittee on Interior and Related 
Agencies, Committee on Appropriations, U.S. Senate, Indian Programs--
BIA Should Streamline Its Process for Estimating Land Rental Values, 2, 
June 1999.
---------------------------------------------------------------------------
iv. Amending Policies and Regulations
    On November 29, 2011, the Department of Interior published proposed 
revisions to the outdated leasing regulations at 25 CFR 162 that would 
streamline and expedite residential, business and wind and solar 
resource leasing. The proposed reforms would reduce or eliminate 
obstructions to tribal economic and renewable energy development. This 
simple regulatory change promises to directly stimulate economic growth 
in Native communities and benefit the American economy.
    The proposed rule would modify regulations governing the Bureau of 
Indian Affairs' (BIA) process for approving surface leasing on lands 
the Federal Government holds in trust for tribes and individuals. 
Although great potential exists, very few tribally owned renewable 
energy projects have moved forward because of the disproportionate 
review processes tribes have been subject to. The proposed regulations 
impose timelines on the Department for reviewing leases--up to 30 days 
for residential leases, and up to 60 days for business leases and wind 
and solar energy leases. The Department of Energy estimates Indian 
lands contain significant renewable energy potential--enough to meet 32 
percent of the nation's energy needs with wind power and 2 times the 
entire country's energy needs with solar power.
    We recommend the final rule be drafted to include leased rights of 
way, which, under current case law, fall within the regulatory 
jurisdiction of the outside entity. This is important because tribes 
sometimes lease rights of way to non-Indian entities to develop 
telecommunications infrastructure, not knowing that this action 
currently cedes jurisdiction. The result is that tribes expose 
themselves to outside taxation which does not benefit their 
communities.
    The potential for economic development and growth from this one 
regulatory change is expected to enable noticeable, beneficial changes 
for Indian nations and their citizens. We would encourage across-the-
board reviews to discover and reduce similar burdensome and 
inconsistent regulatory and administrative requirements that do not 
support economic development and growth in Indian Country. For example, 
the fee required to drill on Indian lands is $6,500--payable to the 
Bureau of Land Management for each application for a permit--presents 
an inequitable disincentive to energy development on tribal lands. The 
scope of the disincentive is demonstrated by comparison with state 
fees. For example, in the state of Montana, the same fee ranges between 
$25 and $150. The fee was intended to target energy development on 
federal lands, not tribal trust lands, but unfortunately it has been 
interpreted in a manner which frustrates oil and gas development on 
Indian lands. Additionally, BLM should be required to retract BLM 
Instruction Memorandum No. 2008-043, which included Indian minerals 
within the scope of the $6,500 fee. Also, BLM should be asked to issue 
a memorandum clarifying that Indian minerals are outside the scope of 
the energy development on federal lands targeted by the initial fee.
v. Reducing and Eliminating Funding Match Requirements for Tribal 
        Nations
    Match requirements for funding should be reduced, eliminated, or 
calibrated according to need, for tribal grant recipients. While many 
non-tribal grant recipients are organizations with an internal business 
component, tribal recipients are governments and must find matching 
funds from within their general revenue stream. Most tribes that are 
dependent on federal grants have extremely limited resources. 
Furthermore, because tribes lack the tax base available to other 
governments, or are deterred from imposing their own tax authority due 
to the existing and problematic exercise of taxing authority from other 
governments, imposing a match requirement on tribal governments 
frequently results in tribes scrambling to find matching funds from 
limited resources and often leads to the underutilization of funds or 
precludes tribes from applying for them.
vi. Improving Methods of Data Collection in Indian Country
    Tribes need access to and control over their own data, as well as 
the ability to build data in areas where it is virtually nonexistent. 
While federal data collection itself does not stimulate business 
development, data is increasingly used to determine where and how 
scarce federal dollars are invested. Since 2000, no meaningful 
socioeconomic data about Indian Country as a whole has been produced by 
the U.S. government. The widely-documented concerns of rural and remote 
communities about the Census Bureau's American Community Survey (ACS) 
are even greater in Indian Country. The Bureau of Labor Statistics 
(BLS) essentially excludes data from Indian reservations in the monthly 
labor force reports, and there is a wide discrepancy between DOI labor 
force reports and those presented by BLS.
    Also, the DOI retains vastly important land data but, as of yet, 
has chosen not to share this data with tribes. Land data is 
increasingly pivotal in areas such as, but not limited to, determining 
the extent and value of natural resources as well as the land 
consolidation provisions within the Cobell Settlement. Broadband 
mapping on tribal lands is also an area where data might be improved 
through better cooperation with states and federal funding sources for 
such mapping. These data deficiencies impair the ability of tribal, 
federal, state, and local policymakers to identify and respond 
effectively to the needs of tribal nations. They place tribes and 
Native non-profits at a competitive disadvantage when applying for 
federal grant funding. Finally, they make assessment of programs 
virtually impossible for tribes and the Federal Government.
    Cost neutral improvements could be made to data collection by 
ensuring more effective coordination among existing federal research 
studies. For example, the Native American Lending Study at the 
Community Development Financial Institutions (CDFI) Fund could be more 
closely coordinated with the Native American Housing Study being 
conducted at the Department of Housing and Urban Development (HUD). In 
other areas covered in this report, interagency collaboration can 
promote critical access to data in natural resources, energy, 
education, etc. We recommend interagency collaboration to ensure 
support of basic surveys and inventories so tribes have accurate and 
current data to support tribal decisionmaking. Savings gained from 
collaboration could be applied to the collection of additional primary 
data from Indian Country.
vii. Access to Information
    As the Administration demonstrated with the Recovery.gov 
clearinghouse, access to information is critical to efficient and 
effective utilization of federal resources. A similar, cross-department 
approach in the economic development sector would provide tribes and 
tribal members better training and access to the variety of economic 
development opportunities available from the Department of the 
Treasury, the Small Business Association (SBA), the Bureau of Indian 
Affairs (BIA), the United States Department of Agriculture (USDA) and 
Department of Commerce, as well as other federal agencies. This 
initiative could also map existing economic development programs that 
exclude tribes and make recommendations for regulatory or legislative 
fixes to ensure tribes are afforded equal opportunity to participate in 
those programs. A particular focus of these efforts would be to ensure 
that all Federal Government agencies review their legislative mandates 
and policies to include ``and tribal governments'' wherever state 
governments are eligible for services and funding. To ensure success, 
this approach begins and ends with acknowledging the unique governing 
status of tribal nations and their particular community needs.
D. Recognizing Tribes as Sovereign Nations in Federal Legislation
    Legislation based on nation-to-nation relations in the area of 
economic development has also had success in Indian Country. The Indian 
Gaming Regulatory Act of 1988 (IGRA) was enacted, for the most part, to 
settle jurisdictional questions between federal, state, and tribal 
governments. The jurisdictional questions which led to the enactment of 
IGRA pitted states against tribes and were rooted in the belief that 
tribal governments lacked the inherent authority to develop their own 
economies through gaming. Currently, Indian gaming is a $26.5 billion 
industry and has provided the foundation for many tribes to ensure 
quality social programs, infrastructure development, educational 
support and other services are available to their citizens. Congress, 
through powers enumerated in the Indian Commerce Clause, affirmed 
tribes' authority to develop their economies through gaming, even where 
tribal gaming was contrary to state law.
    Similar battles have occurred for years in the area of tribal tax 
policy, where the lack of congressional involvement has allowed the 
judicial branch and interpretations from federal agencies to develop 
tribal tax law on a case by case basis. The resulting inconsistent tax 
policy fails to protect the taxing jurisdiction of Indian tribes and 
predominantly favors states' interest in taxing transactions occurring 
on tribal lands.
    Additionally, tribes need to be expressly included in legislative 
proposals to protect state and local government budgets. For example, 
provisions in the American Jobs Act to stabilize funding for teachers 
and first responders and invest in 21st century infrastructure 
inconsistently address (or are silent on) tribal eligibility for these 
programs. Given the critical role tribes play in many of America's 
regions, especially in rural areas, equal access to fiscal 
stabilization funding is critical for all Americans, including Native 
peoples.
    Furthermore, it is worth noting that when tribes are successful, 
they contribute not just toward the overall well-being of their own 
communities, but often towards the well-being of the surrounding local 
communities. As an example, through tribal-state gaming compacts, 
Indian tribes routinely contribute significant dollars in gaming 
revenue to support local governments. Also, tribes have created 
hundreds of thousands of jobs for both Indians and non-Indians through 
construction contracting, hotel and resort management, law enforcement, 
emergency support services and gaming facilities operation as well as 
natural resource development. Even with these successes, tribes are 
still in need of greater administrative flexibility--when it comes to 
economic development in Indian Country, one thing is clear: tribes know 
what tribes need to succeed.
    Throughout the various eras of the Federal Government's policy 
towards Indian tribes, the majority of tribal communities have largely 
been dependant on federal funding--in particular, discretionary 
funding. Looking at the current economic downturn and its projected 
effects on discretionary government spending, Indian tribes are in dire 
need of greater opportunities through little to no costs. Strengthening 
the nation-to-nation partnership between the United States and Indian 
Nations will better equip tribes to continue the development of their 
economies and help their neighboring communities. In this context, 
tribes have identified broad recommendations in areas such as budget 
appropriations, promoting partnerships with the private sector, 
improving access to capital, natural resources, education and workforce 
development, infrastructure development, healthcare, public safety, and 
agriculture. The specific recommendations are included in the Program 
Flexibility Matrix which can be found at tinyurl.com/TNC2011.
II. Access To Capital
    While many tribes have succeeded in the area of business 
development and job creation, other tribal governments and individual 
tribal citizens have struggled to access the necessary capital to build 
strong, healthy economies within their sovereign territories. 
Strategies towards expanding access to capital include: (1) 
facilitating greater access to traditional financing tools; (2) 
alleviating administrative barriers to economic development; and (3) 
promoting financial stability and individual entrepreneurship on tribal 
lands.
A. Facilitating Greater Access to Traditional Financing Tools
    Financial capital is the foundation of business development as well 
as the primary factor required for developing energy resources on 
tribal lands. While there are a host of financing opportunities 
available for business development in general, sometimes tribes 
experience difficulty making use of these opportunities due to 
regulatory barriers or lack of information.
i. Protecting Tribal Tax Jurisdiction
    Tribal tax policy is the result of Supreme Court precedent and 
agency interpretations issued by the Internal Revenue Service. Both of 
these `rulemaking' processes are accomplished on a case-by-case basis, 
which results in inconsistent tax policy towards tribal nations. This 
Committee and Congress should recognize tribal nations' exclusive 
jurisdiction to levy taxes on tribal lands. The ability to levy taxes 
is one of the primary functions of a government, yet Indian tribes are 
often asked to share critical tax revenue with outside jurisdictions, 
sometimes in the form of discriminatory dual taxation, with no 
assurance that any of that taxing revenue will be redistributed from 
the outside jurisdiction back to the tribal nation in the form of 
services or programs. On the federal level, tribal leaders agree that 
federal tax policy implicating Indian tribes needs to recognize the 
governmental status of Indian nations equal to other government 
authorities, and support the inherent exclusive authority for tribes to 
levy taxes within their tribal lands. This recognition will enable 
tribes to build core governance funding that may be used to fund 
government programs, services, and secure government bonds on the 
market, without interference from outside entities. During the current 
economic downturn, this recognition of tribal taxing jurisdiction 
becomes of paramount concern.
ii. Tax-Exempt Financing
    Tax-exempt financing is largely unavailable to Indian tribes for 
three reasons: (1) the ``essential government function'' threshold 
(required by Section 7871 (c) (1) of the Internal Revenue Code (IRC)) 
that tribal projects must meet to qualify for tax-exempt financing; (2) 
tribes' general lack of access to the investment market; and (3) the 
lack of a strong tax base. Barriers to accessing tax-exempt finance 
pose a significant inequity for tribal governments and their citizens 
but also negatively impact surrounding rural and regional economies.
    The ``essential government function'' analysis has restricted the 
use of tax-exempt financing for Indian tribes only to those development 
projects which lack any commercial component (e.g., schools, roads, 
sewer systems, hospitals). In contrast, states and local governments 
are able to use tax-exempt financing to develop projects which may or 
may not contain a commercial component--e.g., marinas, convention 
centers and golf courses --as long as the majority of either the use of 
the facility or the funds used to secure the bond are governmental in 
nature. We recommend eliminating the essential government function test 
in favor of treating tribes like states and local governments.
    In addressing the second and third concerns--lack of access to the 
investment market and lack of a strong tax base--we propose the Indian 
Finance Act and the Internal Revenue Code be amended to allow federal 
guarantees to back tribal bonds on the market. Traditionally, states 
and local governments secure their bonds through their tax base. This 
tax base consists of property tax, income tax, sales tax, and other 
taxing streams which generate enough revenue to use as collateral for 
bond security purposes. Most tribes exercise a modest sales tax, a 
hotel tax and gas taxes, but are constantly competing with neighboring 
states over the right to tax transactions within the tribal 
jurisdiction. Currently, the Indian Financing Act prohibits federal 
guarantees as a source of security for tax-exempt bonds. \4\ Ensuring 
federal guarantees are available to back tribal bond offerings will 
allow tribes to use their bonding authority and capability more 
effectively and frequently, creating jobs and business development on 
the reservation.
---------------------------------------------------------------------------
    \4\ See Indian Financing Act, 25 U.S.C.    1451.
---------------------------------------------------------------------------
    Additionally, the IRC currently prevents tax-exempt treatment of 
any bond backed by federal guarantees. \5\ We recommend bonds 
guaranteed by DOI for tribal tax-exempt bond issuances be added to the 
exceptions listed within Internal Revenue Code, 26 U.S.C.  149 (b). 
Taken together, these proposed amendments to the Indian Financing Act 
and the IRC would expand the tax-exempt financing realm beyond wealthy 
tribes to include tribes with moderate capital resources to leverage.
---------------------------------------------------------------------------
    \5\ See Internal Revenue Code, 26 U.S.C.   149 (b).
---------------------------------------------------------------------------
    Currently, both IRS and Treasury are seeking comments from tribes 
regarding the reallocation of Tribal Economic Development (TED) Bond 
funds. TED Bonds were authorized under the American Recovery and 
Reinvestment Act (ARRA). The purpose of the TED Bond component of ARRA 
was to boost economic development projects in Indian Country and to 
serve as a pilot project, whereby tribal governments would be able to 
issue tax-exempt bonds on a level of parity with state and local 
governments. The TED Bonds have largely remained underutilized due to a 
variety of factors, including the national economic climate which has 
been dismal for the overall bond market. One suggestion we offer is 
that the $30 million cap on TED Bond allocations be raised, or 
eliminated altogether, to ensure tribes have access to better financing 
options. Tribes do not want to obtain two debt sources for one 
development project. As it stands, if a tribe wants to finance a $50 
million hotel using TED Bonds, they must seek the additional $20 
million from another source. Tribes would like the opportunity to 
develop these types of projects within a single finance obligation. The 
Treasury Department needs to reallocate the remaining funds for another 
bond offering with suggestions such as this in mind. The TED Bond 
component of ARRA presents a great development opportunity for tribes 
and should be maximized under existing resources.
B. Facilitating Capital Investment for Tribal Development Projects
    Also, tribes need better access to capital investment tools to help 
facilitate economic development projects. The New Markets Tax Credit 
(NMTC) is an increasingly important catalyst for private sector 
investments that create jobs and enhance access to capital for small 
businesses and community development, especially in distressed 
communities like Indian reservations. While the NMTC has limitations 
concerning what activities qualify, as well as what types of 
communities are targeted as beneficiaries, the IRS has issued guidance 
that identifies an Indian tribe as a targeted population, \6\ meaning 
that tribal corporations are qualifying businesses for project 
financing through the use of NMTCs. However, because of the complicated 
nature of utilizing NMTCs, tribes have generally steered clear of them 
as a potential financing option. Under the NMTC program, the actual 
credit is passed through a Community Development Entity (CDE) to 
potential investors. Tribes need assistance in locating CDEs that are 
willing to contribute towards economic development projects in Indian 
Country through the use of NMTCs. Furthermore, tribes should have the 
ability to monetize existing credits, such as accelerated depreciation 
and the Indian Employment Tax Credit, which currently only benefit non-
Indian businesses operating on tribal lands.
---------------------------------------------------------------------------
    \6\ See IRS Publication: New Markets Tax Credit, Chapter 1: 
Introduction to New Markets Tax Credit, 1; Chapter 2: Issues at the CDE 
Level, 14, May 2010; Adopting the definition of ``targeted population'' 
within the American Job Creation Act of 2004, IRC  45D(e)(2).
---------------------------------------------------------------------------
    The Treasury's 1603 grant program provides cash grant incentives 
for renewable energy projects. However, this funding is not available 
to governments, including tribal governments. We recommend policy 
changes that would allow tribal governments, through Section 17 
Corporations, wholly owned tribal entities, or ANCSA corporations to 
use Section 1603 grants.
    Allowing tribal governments to use Section 1603 grants to finance 
energy projects will help alleviate the taxation issues which often 
stagnate energy development in Indian Country and, in turn, deny the 
nation access to a critical renewable energy source while undermining 
tribal economic development potential. Policies that encourage tribes 
to partner with outside entities have also been used to penalize that 
same partnership through dual taxation (as established in case law). By 
allowing tribes to use Section 1603 grants for energy development 
projects, tribes would be encouraged to take an ownership interest in 
these projects, expediting tribal energy projects and supporting their 
success.
    Next, expansion of the BIA's guaranteed loan program will reduce 
the perceived risk that insurance companies associate with tribal 
governments due to the doctrine of sovereign immunity. It will also 
increase insurance industry access to infrastructure and other 
construction-related projects, and generate job opportunities and 
business growth during difficult economic times at no, or very limited, 
cost to the Federal Government.
    A change that would assist tribal business development is the use 
of existing authorities to provide surety bond guarantees for tribal 
construction businesses. Lack of surety bonding for tribes is one of 
the largest barriers to entry and growth in federal contracting 
construction in a highly competitive and capital intensive sector. 
Construction is also an area with a much higher probability of 
providing direct employment for tribal members and ANCSA shareholders. 
From a regulatory standpoint, this facility could be made available, 
but limited to businesses meeting certain goals such as tribal member 
employment opportunities or other metrics.
i. Promoting Public-Private Partnerships
    In a time of constrained federal resources, the Administration can 
contribute significantly to economic growth in Indian Country by using 
its convening power to draw the attention of private sector and 
philanthropic investors to the opportunities presented by tribal 
nations. As an example, financial institution access could be enhanced 
by convening a strategy session with large financial institutions, 
small and medium banks, Native Community Development Financial 
Institutions (NCDFIs), and tribal leaders to develop innovative 
partnerships. Also, to address surety bonding utilization, the 
Administration could convene tribal enterprises with surety bonding 
companies. Using the White Horse Rural Council as a framework, the 
Administration could draw particular attention to the underinvestment 
by philanthropy in tribal nations and convene large foundations to seek 
commitments to co-invest in Indian Country. There are many other 
opportunities with respect to labor programs and broadband deployment 
as listed below.
    There are additional areas where small changes could have large, 
lasting effects. With respect to energy efficiency, revision of DOE 
weatherization regulations and policies to include tribal programs 
would enable tribes to receive funding directly, without needing to 
prove that state programs do not serve their members. Tribal 
governments should be exempted from the registration and disclosure 
rules set forth in the Securities Act of 1933, as are state and local 
governments (Securities Act of 1933, 15 U.S.C. 77c (a) (2), (b)). As a 
result of this disparity, tribes must either bear the registration 
costs or issue bonds into the private placement market, which generally 
provides inferior terms.
C. Promoting Financial Stability and Entrepreneurship on Tribal Lands
    As tribal economies begin to grow, local financing needs for 
businesses, individuals, and tribes, increase and are exacerbated by 
the lack of financial institutions serving their communities. The 
Administration can help support the development of tribal financial 
institutions serving Indian Country and shape the services provided by 
outside financial institutions currently situated to help tribal 
members.
i. Supporting Development of Tribal Financing Institutions
    Currently, there are more than 60 certified Native CDFIs located in 
18 states serving Indian country, Alaska, and Hawaii. The majority of 
these operate in low-income rural communities. CDFIs provide a wide 
range of financial products and services including microenterprise 
loans, small business loans, consumer loans, mortgage financing, 
financial education courses and credit repair. As such, Native CDFIs 
play a vital role in developing financial security within tribal 
communities, many of which have little to no access to local banking 
institutions.
    In a recent nationwide survey of Native CDFIs, 90 percent of 
respondents indicated receiving federal funding in the last 10 years. 
However, when asked about their experiences and utilization of funding 
from six federal departments that commonly fund community development, 
58 percent of the programs were used by less than 3 NCDFIs. Ten of the 
31 listed federal programs were not used by any of the participating 
NCDFIs. \7\ This demonstrates a clear need for better agency outreach 
and coordination to ensure the success of Native CDFIs.
---------------------------------------------------------------------------
    \7\ Native CDFI Network, The Utilization of Federal Funding 
Resources by Native CDFIs: Survey of Native CDFIs, 4, January 2011.
---------------------------------------------------------------------------
    Also, as with other economic success stories in Indian Country, 
effectively ``telling the story'' to ensure other tribes can benefit 
from lessons learned is invaluable. The Administration should direct 
the Native Initiative of the CDFI Fund to gather best practices in 
CDFIs serving Native and other rural and disadvantaged communities. 
Since Indian Country is severely under banked, it is critical that 
these successes be shared with tribal governments in appropriate 
regional and national settings.
    The few Native communities that do have bank branches on their 
reservations are afflicted by one of two challenges: (1) being served 
by small or intermediate small banks whose Community Reinvestment Act 
(CRA) exams are not sufficiently robust; or, (2) being served by 
branches of large banks that can offset underinvestment in Native 
communities with lending activities elsewhere. It is critical for the 
agencies to both remove exemptions from data reporting and other tests 
for small banks (as was done, for example, in the Dodd-Frank Financial 
Reform Bill), and add a community development component to the CRA exam 
for large banks. We need an exam methodology that incentivizes the 
investment in community infrastructure to serve remote, rural, and 
especially, reservation communities. The current structure of large 
bank exams allows a lack of community focused lending to be offset by 
home or business lending in other communities (often urban 
communities).
    The agencies should also impose meaningful penalties on banks that 
fail to receive satisfactory grades on their CRA exams. One bank in 
South Dakota, located in the midst of the Lake Traverse Reservation of 
the Sisseton-Wahpeton Oyate, has received ``needs to improve'' as its 
grade on all five CRA exams since 1996 with no clear consequences for 
this ongoing non-compliance. It is also striking the degree to which 
Performance Evaluations (PEs) of banks that serve communities with 
large Native populations completely exclude analysis of bank service to 
tribal nations. Agencies must require that PEs that cover banks whose 
service areas include substantial tribal lands and/or Native 
populations assess the degree to which those institutions serve the 
Native communities in question.
ii. Encouraging Entrepreneurship on Tribal Lands
    While tribal governments have made great strides in developing 
their economies with the financing tools available to them, individual 
tribal members still face the highest unemployment rate of any other 
minority group, and individual entrepreneurship remains largely 
underdeveloped among Indian peoples. Indian people interested in 
developing business ventures must be included within any policy 
promoting economic development in Indian Country.

        Buy Indian Procurement Requirements
    No single measure would do more to help resuscitate Indian Country 
employment, particularly in manufacturing, than an encompassing Buy 
Indian government procurement requirement. All infrastructure projects 
funded and guaranteed by the Federal Government and the proposed 
infrastructure bank should require purchases to be made in Indian 
Country rather than overseas, consistent with our international trade 
agreements. The Defense Authorization Bill passed in December that 
requires the Pentagon to buy solar panels from U.S. manufacturers is a 
good model. Further, to qualify as ``Made in Indian Country,'' at least 
75 percent of the content should have to be manufactured within tribal 
borders. To make that happen, the White House by Executive Order and 
Congress by legislation should require domestic content calculations to 
be effective and transparent.
    In addition, Congress needs to enact an all-Indian successor to the 
1933 Buy American Act. No regulations to implement the Buy Indian Act 
have been issued in 75 years. Through a combination of regulation and 
expanded legislation, the Administration should support long-overdue 
regulations and changes to the Buy Indian Act which ensure that 
preference is given to on-reservation Native individuals and 
enterprises, and ANCSA corporations, in awarding contracts, and 
subsequent subcontracts, with DOI, Indian Health Service (IHS) and 
other agencies serving American Indian and Alaska Native populations. 
The Buy Indian Act should also be amended to require the recipient of a 
contract to provide training and employment preferences to Native 
people. Furthermore, consultation was held, March 2010, on draft 
regulations for the Buy Indian Act. Yet, to date, DOI has failed to 
release its final regulations.

        Government Contracting
    Government contracting in Indian Country, through the tribal 8(a) 
program has been subject to more regulatory oversight from both the 
Small Business Administration and Department of Defense than most other 
contracting programs. The regulatory oversight combined with 
Congressional oversight has had a chilling effect on the very agencies 
that the Native communities rely on for contracting revenue. The tribal 
8(a) program has already been altered in the Senate by placing a 
justification requirement on contracts exceeding $20 million. This is a 
far lower threshold than that applied to other sole source awards. 
Tribes use the 8(a) program to support the economic health of entire 
communities, and it has proven effective regardless of a tribe's 
location or size, making it a viable tool for all tribal governments. 
To support this effective incentive for tribal governments, the 
Administration should demonstrate their clear and unambiguous support 
for the program and provide certainty in the contracting marketplace.
    We further recommend that the price evaluation adjustments of up to 
10 percent when bidding on federal contracts in certain industries be 
expanded to all industries. This adjustment would encourage greater 
participation in the program at a time when Section 811 has had a 
chilling effect on government contractors.
    Also, the Administration should support legislative language that 
elevates the Office of Native American Affairs (Office) within the 
Small Business Administration (SBA). With limited authority and 
resources, the Office promotes Native-owned 8(a) business development, 
HUB Zone empowerment and other government contracting, entrepreneurial 
education, and capital access. It is necessary that the Office be 
brought into line with other administrators at the SBA and have the 
capacity to provide funding for Indian-focused technical services 
through tribal colleges and existing service providers.
    Other non-tribe specific SBA opportunities, such as the SBA 7(a) 
program, offer potential funding opportunities. The 7(a) program 
provides financial help for businesses that handle exports to foreign 
countries, businesses that operate in rural areas, and for other 
specific purposes. The loans offered to businesses operating in rural 
areas are smaller, yet have a more streamlined, simplified application 
process. Similarly, the SBA Section 504 loans operate in conjunction 
with community-based non-profit organizations. More information needs 
to be accessible to individual tribal members interesting in starting 
their own business ventures.

        Specific Recommendations to Expand Access to Capital
    The specific recommendations are included in the Program 
Flexibility Matrix which can be found at tinyurl.com/TNC2011.
III. Access To Broadband
    The United Nations recently announced that access to the Internet 
is a basic human right because it facilitates civic engagement, assists 
economic development initiatives, promotes long distance learning and 
telemedicine, and is an invaluable source of information. However, 
tribal communities continue to experience low access and connectivity 
rates for basic broadband and analog telephone services. Where 
competitive forces have facilitated the build out and deployment of 
broadband Internet, telephone and radio access, tribal communities have 
experienced numerous bureaucratic and financial barriers to access. 
Even without competition, local service providers have not provided 
adequate service to Indian lands within their jurisdictions.
    Analog telephone (basic telephone service) penetration rates on 
tribal lands are at 67.9 percent compared to 98 percent across the 
nation. The disparity on tribal lands pertaining to Internet access is 
even higher due to the lack of infrastructure required to support 
standard Internet delivery over twisted pair, cable and satellite 
transmissions. The Federal Government, through its trust 
responsibility, congressional passage of the 1934 Communications Act 
and subsequent amendments through the 1996 Telecommunications Act, has 
a fiduciary responsibility to provide avenues of access for 
connectivity and universal service in tribal communities. The 
establishment of a reliable telecommunications infrastructure across 
Native lands is essential to the operation of tribal government, health 
care, education, and public safety as well as economic development.
A. Rural Development Loan Program
    Approximately 500 rural telecommunications companies receive loans 
from USDA's Rural Development, Rural Utilities Service (RUS). Out of 
those 500, eight (8) are tribally owned/operated telecommunications 
authorities operating on tribal lands that have acquired eligible 
telecommunications carrier (ETC) designation from the Federal 
Communications Commission (FCC). RUS loans are provided for the purpose 
of providing funding for facilities and equipment to upgrade, maintain, 
and expand deployment of broadband services. However, these loans are 
not available to tribes pursuing start up initiatives for their own 
telecommunications companies because the USDA is unable to provide 
loans to entities that would provide competition with rural carriers 
receiving similar loans from the USDA. In reality, if the incumbent 
companies were providing broadband service in these geographies, there 
would not be the disparity or lack of broadband service that currently 
exists on Tribal lands. If there is no service or degraded service, 
then funding tribes to own/operate broadband facilities would not 
present any competition to the rural carriers. The current USDA 
obstacle unnecessarily prevents tribes from developing their own 
telecommunications abilities and providing vital services to their 
reservations. Additionally, the lack of competitive provision of 
telecommunications and broadband service to tribal lands creates a 
disincentive for the rural carriers to create, expand or improve 
services to those areas. While the USDA loan program has enabled some 
tribes to establish their own telecommunications, it has not been 
inclusive of tribes seeking these capital loans if they will provide 
competition to nearby rural telecommunications companies.
    The eight tribal telecommunications companies that have attained 
ETC designation have increased broadband connectivity to their 
communities by 300-900 percent. Tribal ETC designations should not be 
halted or barred if a rural telecommunications company operates a 
service area that extends within tribal reservation boundaries. Service 
areas must be redefined to accommodate a tribal ETC designation. Tribes 
should also be given first right of refusal to access spectrum over 
their own lands.
    We would urge Congress to reform USDA lending policies to ensure 
tribal eligibility for loans even when they provide competition to 
rural telecommunications companies/cooperatives and to redefine service 
areas to accommodate tribal ETC designations if a rural carrier holds 
spectrum over tribal lands. Additionally, Congress should mandate and 
fund a program that effectively identifies and communicates information 
about federal programs that offer tribes competitive financing options 
(e.g. low interest rates and extended repayment terms or the waiver of 
non-duplication restrictions, matching fund requirements, or credit 
support requirements from any loan or grant administered by federal 
agencies). Congress should restore full funding for the USDA Office of 
Tribal Relations sufficient to support staff, education and training on 
USDA programs available to tribes. Finally, Congress should mandate the 
creation and funding of a position within the USDA RUS, to be filled by 
an American Indian or Alaska Native, to encourage further collaborative 
efforts with tribes.
B. E-911 Upgrade Requirements
    Full access to emergency services is an essential component of a 
business-friendly reservation environment. Unfortunately many tribal 
communities across the nation lack analog and/or digital access to E-
911 services. Broadband services are an essential life saving utility 
that should provide tribal communities with security and assurances 
that emergency services are available and adequately attainable through 
E-911.
    Another critical public safety feature related to E-911 is the 
Automatic Location Identification data base. ALI failure occurs when a 
phone number is not located in the database and the Public Safety 
Answering Point (PSAP) operator must ask the caller of their location 
and redirect them to an appropriate PSAP that services that area. Since 
many non-tribal members are unaware of the areas/names of tribal lands 
this leads to prolonged EMS and law enforcement response times that can 
have life-threatening consequences.
    Ensuring tribes are a part of this critical piece of 21st century 
infrastructure requires efforts by the Congress and Administration to 
ensure tribes are included in HR 2629 ``Next Generation 9-1-1 
Advancement Act of 2011.'' The goal of this proposed legislation is to 
foster migration from analog, voice-centric 9-1-1 to a next generation 
IP-based model. However, many tribes across the nation currently do not 
have access to even basic analog telephone services and therefore this 
gap to access for emergency services on tribal lands will increase if 
tribal consideration is not given and access to broadband is not 
secured.

        a) Urge the FCC to alter the definition of `library' to allow 
        eligibility for tribal libraries to receive E-Rate support.

        b) Ensure funding mechanisms allow tribes access to technical 
        assistance to assess infrastructure and appropriate 
        technological and service solutions for deployment and 
        maintenance of broadband services on tribal lands.

C. Universal Service Fund
    Potential tribal access to the Connect America Fund (CAF), 
announced in October 2011 by the FCC, \8\ would offer significant 
improvements to the current broadband coverage deficit. The CAF is 
designed to provide funding for access to a network that will be 
capable of providing high-quality voice-grade service and broadband in 
the most remote areas of the nation. We are encouraged that the FCC has 
stated its intention to rely on incentive-based, market-driven 
policies, including competitive bidding, to distribute universal 
service funds as efficiently and effectively as possible. However, we 
are concerned that exclusions of ``extremely high cost areas'' from 
some requirements and 2-3 year phase-in following additional rulemaking 
on the tribal Mobility Fund, combined with potential delays while the 
FNPRM responses are analyzed and incorporated into an Order, may result 
in Indian country being the last area of the United States to begin to 
have access to broadband service foreseen by this latest universal 
service effort. As the history of ``Universal Telephone Service'' 
displayed, communities that remain unserved and underserved when 
Congress and the Agencies change focus and funding away from Indian 
country will thereafter continue to be unserved and underserved. 
Additionally, as the nation begins its transition from analog to 
digital services there needs to be an assurance that tribes will have 
timely and increased ability to own, access, develop and enhance 
digital services within their respective communities.
---------------------------------------------------------------------------
    \8\ See Connect America Fund et al., WC Docket No. 10-90 et al., 
Report and Order and Further Notice of Proposed Rulemaking, FCC 11-161 
(rel. Nov. 18, 2011) (USF/ICC Transformation Order and FNPRM).
---------------------------------------------------------------------------
    To achieve the maximum potential of voice and broadband 
implementation in tribal areas, Congress and the FCC need to focus on 
three interrelated areas--all of which need to be addressed 
concurrently:

  <bullet> Infrastructure and Technology Support;
  <bullet> Workforce Development and Member Education; and
  <bullet> Interagency Education and Management of Grant and Loan 
        Support.

        Infrastructure and Technology Support
    Leg one of this triad includes building out the infrastructure--
from the first shovel to the installation of network hardware and 
software. This leg may also include starting up the business operations 
to support the new broadband facilities. In addition to creating local 
jobs and economic stimulus in architectural and planning, contracting, 
construction and technology businesses, this phase requires additional 
access to capital and technical training. Following the initial 
construction, tribal networks will continue to support a workforce both 
to maintain the network operations and manage the financial side of the 
network business. Tribes need access to loans, grants and other capital 
infusions to benefit quickly and efficiently from new broadband and 
communications capabilities on their lands.

        Workforce Development and Member Education

    The second leg of the triad--workforce development and tribal 
member education--is necessary to allow the tribe to fully realize the 
capabilities of access to broadband services. Additional training and 
training and workshops will be needed to prepare medical professionals 
and facilities, schools and educators, safety and enforcement teams and 
businesses for broadband capabilities relevant to their fields. This 
training needs to go far beyond software upgrades and new computers 
because it needs to be designed for professionals who have not had the 
most basic Internet services until now. Of course, once businesses have 
established an Internet presence, they will need to learn and establish 
processes for fulfillment, both domestic and international. Individual 
tribal members are also likely to need increased training in basic 
Internet skills, privacy protection, protection from hacking and 
viruses and special precautions applicable to their youngest and older 
populations. For all new users, the learning curve of the Internet is 
steep, especially when combined with ongoing technical changes in 
hardware and software.

        Interagency Education and Management of Grant and Loan Support

    The third, supportive base of the triad on which both of the other 
legs rely is access to capital. Capital will be required to obtain 
spectrum, finance infrastructure, acquire network routers and other 
technology, train tribal members, build websites and generally stand up 
businesses, medical systems, school systems, enforcement and emergency 
support and other broadband-dependent access. While other areas of this 
paper focus on the variety of challenges tribal governments have to 
capital, there are federal programs currently available that could 
provide financing alternatives from the first shovel of construction 
through opening day of the local business.
    Properly coordinated, the loan and grant programs operated through 
the Federal Communications Commission, the Department of Agriculture, 
the Department of Commerce, the Small Business Administration, the 
Department of Justice and the Department of the Interior should be 
coordinated to ensure that all three elements of the broadband triad 
are being supported simultaneously. Toward this end, Congress should 
continue to recognize and allocate funding specifically for the FCC 
Office of Native Affairs and Policy, the USDA Office of Tribal 
Relations, the Department of Commerce Economic Development 
Administration, the Small Business Administration Office of Native 
American Affairs and other federal organizations that manage funding 
programs into Indian Country. Finally Congress should fund an inter-
agency program with responsibility and funding to coordinate 
educational material (that is not reliant on Internet dissemination) 
and provide face-to-face training to tribal governments, social 
services organizations and businesses on all federal funding sources, 
regardless of the funding agency.
D. Tribal Lands Bidding Credit
    The Tribal Lands Bidding Credit (TLBC) was introduced by the FCC to 
provide an incentive for telecommunications companies to expand 
broadband services to tribal lands that have a penetration rate equal 
to or lower than 85 percent. These credits were awarded to winning 
bidders and were meant to offset infrastructure deployment costs but 
have failed to expand broadband services to tribal communities. Some of 
the shortfalls surrounding the TLBC program include:

  <bullet> tribal communities unable to acquire spectrum licenses;

  <bullet> lack of increased coverage to unserved and underserved 
        tribal populations and geographic areas;

  <bullet> commercial providers unable/unwilling to include tribal 
        provisions for service; and

  <bullet> limited support for tribal public safety efforts including 
        the enhancement of wireless Public Safety Answering Points in 
        tribal communities.

    Additionally, this Committee should inquire why the TLBC has been 
available for use thus far in 32 auctions (covering as many as 18,791 
licenses), but only 16 license applications (involving a total of only 
51 geographic area licenses) have been fully compliant with the 
Commission's TLBC certification requirements.
    The TLBC program needs evaluation of its application process and 
oversight/enforcement provisions that provide for the reallocation of 
spectrum allocated to entities who fail to serve their designated 
tribal lands with first priority to obtain these licenses given to 
tribes at reserve or discounted prices.

        Transition Concerns

    As the nation begins its transition from public switched telephone 
network (PSTN) to new technologies, Congress and the FCC need to be 
able to assure tribes they will have timely increased ability to own, 
access, develop and enhance digital services and new technologies 
within their respective communities. Due to the lag in the actual build 
out of broadband services and the establishment of related business and 
service operations, Congress should mandate the continuation of vital 
analog services such as Lifeline, Link-Up, and the High Cost programs 
during the transition.
Conclusion
    This supplemental testimony has highlighted the unique challenges 
tribes and their members have faced for generations. NCAI's member 
tribes and their citizens face significant economic challenges--
particularly in the midst of the budget reduction climate. However, as 
we move forward in addressing these challenges, it is critical to 
realize that tribal communities offer unique innovations that can make 
significant contributions to the policy debate regarding the economic 
crisis and the prospects for a fair and equitable recovery for all 
Americans. Indian tribes recognize the challenges of developing their 
local economies and providing jobs without the access to funding and 
basic business tools, like broadband access, that are available to much 
of the United States outside of tribal lands. NCAI looks forward to 
partnering with the Committee, as critical members of the federal 
policymaking community, to ensure tribes are included in developing and 
paving a way for economic development and job creation in Indian 
country.
    The Program Flexibility Matrix and the Program Flexibility to 
Create Jobs and Grow Tribal Economies discussion document have been 
retained in Committee files and can be found at:

        http://www.ncai.org/resources/policy_papers/2011-tribal-
        nations-conference-tribal-leader-briefing-book

        tinyurl.com/TNC2011.

    The Chairman. Thank you very much, the Honorable President 
Jefferson Keel, for your testimony.
    President Keel, in your testimony, you mention the 
importance of self-governance programs in promoting economic 
development and spending Federal dollars efficiently. Are there 
ways we can expand this program to increase its impact?
    Mr. Keel. Yes, Senator, thank you for that question. Tribes 
have proven, many Tribes that have entered into self-governance 
compacts with the Federal Government have proven over and over 
that they are more adequately prepared to provide and manage 
programs at high levels, improve and raise the quality of 
services with less money. Primarily because they don't get full 
funding for the administrative costs that are associated with 
those contracts. Yes, and the answer to your question is yes, 
that could be expanded across the board.
    There are agencies within the Federal Government that 
Tribes could operate more efficiently, closer to home, with 
probably less resources and less funding that is available, and 
they have proven that over and over again. There are some 
efforts to include that and expand the Title V Self-
Determination and Self-Governance in the Health and Human 
Services to all agencies within HHS. And there are some others 
within the Department of Interior that could also benefit.
    We look at other areas that could be expanded, and we look 
forward to working with you in helping to develop that process.
    The Chairman. Thank you, President Keel.
    Workforce development is tremendously important as Tribes 
build and grow their local economies. How can the Federal 
Government better support workforce development so that it 
meets the needs of the Tribal communities?
    Mr. Keel. Thank you again. If you look at Indian Country, 
there are many reservations and areas that have had high 
unemployment rates for years. The problem with many of our 
local areas is that many of our young people don't even know 
how to work. So we need to teach them job skills. There are 
vocational and technical institutions around the Country in 
different States and different areas that are more than 
adequate in terms of teaching those job skills, whether it be 
in developing a trade or higher education.
    The problem is access to funding for some of those. And 
again, it comes back to transportation. We have to transport 
these students and get them from one area to another to be able 
to engage in some of these activities. Including the Tribal 
technical colleges and some of those institutions in that 
process would greatly enhance those opportunities.
    The Chairman. Thank you very much.
    Let me call on Senator Udall for his questions.
    Senator Udall. Thank you, Chairman Akaka, and thank you, 
President Keel, for your testimony.
    I notice one of the areas you focus on is how we could 
expand domestic energy production working with the Tribes. And 
I am wondering, since we passed the Energy Bill in 2005, in 
those energy provisions that were in there, there was a Tribal 
title. Where do you see the biggest need for improvement? What 
has worked there, what hasn't?
    Mr. Keel. I may not be qualified to answer that fully, and 
I may have to get back to you. But it seems to me that when you 
talk about domestic energy production, there are Tribes that 
have tremendous resources available to them located within 
their Tribal areas. Many times the difficult part is accessing 
those resources. And I know that several years ago, there were 
some administrative requirements that were eliminated in order 
to allow some Tribes to develop resources on their own lands.
    Another instance is, there are Tribes within the Northwest 
and the Great Plains that have significant coal resources. It 
is a matter of helping them to access those resources and get 
them to market in order to really see a return on investment.
    Senator Udall. President Keel, the Vice Chairman here, 
Senator Barrasso, has introduced an energy bill. I know this 
may not be your area of expertise, but I think it is S. 1684, 
what improvements would you suggest? Does the bill go far 
enough to really make a difference in energy for Indian 
Country? And how does that compare with, there was a bill in 
the last session of Congress, I think, that Chairman Dorgan 
had. And I am wondering what your thoughts are there.
    Mr. Keel. Senator, could I ask that, I have the Executive 
Director of NCAI who has worked with that----
    Senator Udall. She is a very capable woman.
    Mr. Keel. Could I ask her to help answer that question?
    Senator Udall. Yes. Give her name for the record. I know 
Jackie.
    Mr. Keel. Jacqueline Johnson-Pata, who is Executive 
Director of the National Congress of American Indians.
    Ms. Johnson-Pata. Thank you for the question about energy. 
Obviously it is a high priority for NCAI and for Tribes across 
the Country. And when speaking to the first question and to 
this question, actually I think they are both related. The 
Energy Act of the past helped us to address things like we 
wanted the TARA [phonetically], for example, to help streamline 
process. But TARA hasn't worked, there have been some things 
that we still need to do. We still need to deal with the 
leasing issues, we are hoping that some of the new regulations 
that DOI just announced and the streamlining might be able to 
help us in addressing those. But we want Congress, like you, to 
be able to monitor that, to be able to ensure that happens.
    Another area that is really important for us is building 
technical capacity. I think that goes with part of the 
workplace development component. But if Indian Country is going 
to get into the energy industry, we have to develop a workforce 
and the knowledge and the skills around that. And we have been 
working with AFN of Canada in addition to the Tribes here, so 
that we can do some cross-border training. I think that is an 
important component.
    I have to say that there are great pieces in the Barrasso 
bill. Some of the places which we know are more difficult and 
they are not necessarily the jurisdiction of this Committee, 
but the jurisdiction of Finance, is taking a look at some of 
those tax incentives that could be useful for energy 
development. We have talked about things like transferable tax 
credits, so that the energy partners of Indian Country, we 
could get greater incentives for those partners to want to work 
with us to be able to develop those energy resources. And those 
are important pieces.
    Another pieces that is a gap, not in the bill, not 
addressed directly in the bill, and I recognize it has a 
strong, we need strong support with the Administration, is 
access to the grid. So we develop energy, what do we do next? 
If we develop energy, what we need to be able to do is 
stockpile, storage, have storage units for that energy and then 
transfer them to the grid or be part of the grid. And there are 
panels and commissions on the grid that Indian Country doesn't 
have representation on. So with your urging, we could ask the 
Administration to make sure Indian Country has fair 
representation in those dialogues around grid build-out and 
development.
    Senator Udall. Thank you very much. The Committee is very 
aware that Secretary Salazar is moving through these DOI 
leasing issues and things like that. But we need to know, when 
they come out, your response to them. And President Keel, I am 
sure you are going to stay on top of that. But as things 
develop, we want to know whether they are working, whether they 
are not, so we can work with our Chairman to make sure there is 
a legislative side to this that will make it work better.
    Thank you very much. You can see from her excellent 
testimony why you hired such a capable person.
    The Chairman. Let me say thank you very much, Jackie 
Johnson-Pata, the Executive Director of NCAI. Good to have you 
with us.
    Let me call on Senator Franken.
    Senator Franken. Yes. Don't leave.
    [Laughter.]
    Senator Franken. Mr. Keel, I mean no disrespect but----
    Mr. Keel. I get it.
    [Laughter.]
    Senator Franken. Ms. Johnson-Pata, you may have noticed 
that in the first panel, I talked a little bit about biomass. 
That is something we have in abundance in Minnesota. I really 
would love to work with you and have my office work with you on 
helping our Tribes and our bands develop their biomass, so that 
we can be using it as a renewable energy source.
    Ms. Johnson-Pata. Thank you. You may not know, but I come 
from the great State of Alaska, and from the southeast, where 
biomass is also an important opportunity for us. And we have 
found that even with the energy subsidies and development for, 
or maybe energy grants that we get for testing and developing 
some of those prototype fuels and other kinds of things that 
there is still this gap. What we really need to be able to do 
is to strengthen the ability of Indian Country to evaluate 
those acceptable practices and industry components, so that we 
can make good, strong decisions about long-term feasibility. I 
think that is one of those, which again I say is capacity-
building. We have to know what we are getting into. We don't 
want to create an environment where we get part way there but 
we can't get those biofuels to market in a way that is feasible 
for a longer term usage.
    Senator Franken. Well, the biofuels or biomass energy 
industry has lots of promise. But in many ways, it is not there 
yet.
    Ms. Johnson-Pata. Right.
    Senator Franken. But when it does get there, we want you to 
be part of it. Because that is something you have, there may be 
lack of infrastructure, there is no lack of biomass, certainly, 
in Minnesota. And then there is, in many cases, there is wind 
as well.
    I will go to Mr. Keel, but you can feel free to answer 
this, because we talk about individual development projects, we 
talk about broadband and that is incredibly important, and all 
these individual areas are very important to economic 
development. But I want to, in a holistic way, when you think 
about, you think of Indian Country and some of the barriers 
that are there, and there are barriers in workforce training, 
job training, certainly in education, certainly in health care, 
certainly in the devastating problems of domestic violence and 
drug abuse and alcohol abuse and law enforcement.
    Can you give me, when we are talking about economic 
development, can you tell me, has there been something that is, 
in a more holistic way, that has worked? Has there been a 
holistic approach to all of these problems, or has every 
success story been a unique story? In other words, I am trying 
to find a way in, when you look at these legacy problems that 
exist, have there been successful models that we can look to as 
a way of approaching this kind of systemic problem in Indian 
Country?
    Mr. Keel. Let me start first, and I will ask Jackie to fill 
in. The Indian Self-Determination Act in 1975 provided Tribes 
the opportunity to enter into many types of activity, to start 
contracting with the Federal Government and start taking 
programs and doing things. It also allowed Tribes to move 
forward in terms of developing their gaming industry. The 
result of that was the Indian Gaming Regulatory Act. And the 
Tribes, there are some Tribes around the Country that have been 
extremely successful in those types of initiatives. They have 
taken those monies, the revenue stream, that has provided then 
an opportunity to diversify their economies. Now they are 
providing, they are entering into other types of businesses 
with that funding stream.
    So now we see Tribes that are involved in banking, they are 
involved in a number of other types of activities instead of 
just gaming. So whether you are a proponent of gaming or not, 
it has provided the impetus for Tribes to diversify and grow.
    There are other things in terms of education. What I see in 
the outgrowth of that is some of our younger people are now 
becoming professionals, they are CPAs, they are lawyers, they 
are doctors, they are other types of professionals who are 
coming back. And they will be coming back and bringing that 
knowledge and that expertise back to Indian Country. They are 
actually showing us and teaching us and helping us to develop 
that infrastructure that we desperately need.
    But the real problem is the infrastructure needs in Indian 
Country. So as far as a holistic approach, obviously, more 
funding, obviously, allowing Tribes to develop their own 
resources is a way to help with that.
    Ms. Johnson-Pata. I just want to add on, I think President 
Keel is absolutely right. The Self-Determination Act set the 
framework for doing something that changed Indian Country 
substantially. And that began, the very beginning, I think, of 
building business acumen.
    There are a couple of other pieces to that. I think with 
building that business acumen, it really is about when Tribes 
are at the table making decisions, I will use a good example, 
housing development, NAHASDA. When Tribes were at the table to 
develop programs and systems that would work with their own 
community, they also were looking at the financial revenue 
returns of those. So building a business acumen that is going 
to help them for the future.
    Another good example, Southern Ute is going to be 
testifying here in just a few minutes, being able to get people 
that are out in the industry learn the industries and bring 
them back at home. That is being able to invest not only in the 
post-educational component of that, but reaching out to 
industries that we need to learn from and see if we can't 
create fellowships, internships, those kinds of programs, so 
that we can learn with each other.
    A good example of that is really the mentorship program 
under 8(a) government contracting. Because that is another way 
of building business acumen. Every time we can do that we 
strengthen Indian Country's ability to be more economically 
sovereign.
    Senator Franken. So building on success is certainly part 
of that story. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Franken. Thank you both.
    The Chairman. Thank you very much, Senator Franken.
    Let me complete your name as Jackie Johnson-Pata. It is 
good to have you with us, Jackie. And I want to thank the 
Honorable Jefferson Keel for being here and for your remarks as 
well as your answers to our questions. And it certainly will be 
helpful to the Committee. So thank you so much for being here.
    Mr. Keel. Thank you, sir.
    The Chairman. Now I would like to invite the third panel, 
the Honorable Ben Shelly, President of the Navajo Nation; and 
the Honorable Cedric Cromwell, Chairman of the Mashpee 
Wampanoag Tribes; and the Honorable Pearl Casias, Chairman of 
the Southern Ute Indian Tribe. Welcome, all of you, to the 
Committee.
    President Shelly, please proceed with your testimony.

     STATEMENT OF HON. BEN SHELLY, PRESIDENT, NAVAJO NATION

    Mr. Shelly. Good afternoon, and thank you, Mr. Chairman. 
Ya'at'eeh, good afternoon. I am Ben Shelly, President of the 
Navajo Nation.
    My testimony will cover three topics. The first, I would 
like to emphasize major efforts between the Federal Government 
and the Navajo Nation to create jobs through the broadband 
development. Second, I will touch on the Environmental 
Protection Agency's regulatory impact on job creation. And 
third, I will discuss further economic development efforts 
specifically to tourism.
    The Navajo Nation is committed to providing quality 
broadband service to the Navajo people through the Navajo 
Nation's Middle/Last Mile Project. One of the keys to our 
initial development was that we got a $32.2 million project 
grant funded under the ARRA, American Recovery and Reinvestment 
Act to the Navajo Nation, to the Navajo Tribal Utility, NTUA. 
NTUA is an enterprise of the Navajo Nation.
    This project highlights successful collaboration between 
the Navajo Nation and the Federal agencies to administer and 
manage large projects. The Navajo Nation has completed an 
environmental assessment for the entire project. The initial 
one included a superhighway. We will be laying down 550 miles 
of fiber optics, which half of it might have been laid already, 
and it will be erecting 32 new microwave towers and a data 
center. This is happening, this is not just a story, it is 
happening.
    Hundreds of jobs are being created in construction and 
maintenance of the network. The broadband network will provide 
4G connectivity and high speed internet service, similar to the 
broadband application in urban areas. The project is a first 
step to cover the entire Navajo Nation. Further, the projects 
will bring telemedicine, public safety, education to a majority 
of the entire reservation.
    Our project is making a large dent in the digital divide on 
the Navajo Nation. But further efforts are needed. NTUA is 
further addressing the connectivity issue on the Navajo Nation 
and has also formed an NTUA Wireless. NTUA Wireless has 
petitioned the Federal Communication Commission as an eligible 
telecommunication carrier. While the success of the block grant 
projects are to be celebrated, the Navajo Nation will still 
face significant challenges to job creation and economic 
development by Federal regulation. For example, a recent action 
of the United State Environmental Protection Agency to impose 
costly and unnecessary regulation on power plants on the Navajo 
Nation will effectively kill Tribal energy development and rob 
the Navajo Nation of much-needed jobs and revenue.
    The Navajo Nation will continue to work with the State and 
the Federal Government to adopt reasonable and achievable 
standards that respect the Navajo Nation's local economy.
    Another regulatory concern involves an FAA flyover 
exemption. The Navajo Nation seeks to exempt air tour operators 
flying to or off the reservation from having to use allocations 
required for commercial air tour at the Grand Canyon. A similar 
exemption was extended to the Hualapai Tribe. The Navajo Nation 
is committed to working with the Federal Aviation 
Administration and the National Park Service to create such an 
exemption which will support economic development on Navajo 
Nation land.
    In conclusion, Congress, through the ARRA funding, has 
helped us develop broadband efforts that will bring positive 
economic change and future business Development on the Navajo 
Nation. We have given you a picture of what works and does not 
work on the Navajo Nation. Congress should continue to close 
monitor EPA and FAA regulations and the impact on economic 
development in Indian Country.
    Ahe'hee, thank you.
    [The prepared statement of Mr. Shelly follows:]

    Prepared Statement of Hon. Ben Shelly, President, Navajo Nation
    Mr. Chairman and Members of the Committee,
    Ya'at'eeh. Good afternoon. I am Ben Shelly, President of the Navajo 
Nation. There are several efforts taking place on the Navajo Nation 
regarding job creation. Since there are multiple topics for discussion, 
I will first provide testimony with an emphasis on our mutual efforts 
between the Federal Government and the Navajo Nation to create jobs 
through our Broadband development. Additionally, I will touch on the 
Environmental Protection Agency regulatory impacts on job creation and 
further tourism efforts over the Grand Canyon.
ARRA Support
    The Navajo Nation has a long range, sustainable Broadband plan for 
all regions of the Navajo Nation. The official project name is the 
Navajo Nation Middle/Last Mile Project: Quality Broadband for the 
Navajo Nation. One of the keys to our initial development of the 
project was funding provided under the American Recovery and 
Reinvestment Act (ARRA) through a $32.2 million grant to the Navajo 
Tribal Utility Authority (NTUA). NTUA is an enterprise of the Navajo 
Nation. NTUA also provided a $14 million co-match on the ARRA grant.
    The Nation understood that the ARRA grant required a sophisticated 
internal financial management system and strong experience with 
environmental compliance review before construction could begin, 
especially given the context of tribal lands. That is why the Navajo 
Nation chose NTUA to spearhead the project, with its decades' long 
experience in building utility infrastructure and providing critical 
utility services to the Navajo People. NTUA's performance under the 
ARRA grant has demonstrated to various federal agencies, and Congress, 
that the Navajo Nation has the capacity to administer and manage a 
massive broadband project.
Project Progress
    The territory of the Navajo Nation lies across the three states of 
Arizona, New Mexico and Utah. Although we are a sovereign Nation, as a 
project on Navajo trust land, and where the build out was initiated 
with federal funds, rights-of-way, and even tower permits, require 
federal approval and compliance with NEPA. The project therefore 
required Environmental Assessments (EAs) for the entire project, a 
project covering over half of the Nation's entire 27,000 square mile 
territory (approximately the size of West Virginia). The initial line 
includes a 550-mile Fiber optic route, with 20 miles of lateral lines; 
32 new microwave towers; multiple sites housing technical equipment; 
and an NTUA Data Center built to house electronic equipment and 
software.
    NTUA has worked hard to meet all of the U.S. Department of 
Commerce's requirements and has also worked successfully with the 
Department of Interior, Bureau of Indian Affairs, to complete the EAs. 
Recently, the Department of Interior issued a finding of No Significant 
Impact (FONSI) for this project. NTUA is now constructing the project 
and has made significant progress on the overall construction of the 
project, including the installation of 14 new microwave towers, 
construction of the Data Center, and installation of over 150 miles of 
fiber.
    The project will build upon NTUA's existing microwave network and 
provide broadband access to 15,120 square miles within the Navajo 
Nation. Hundreds of jobs are being created in construction and 
maintenance of the network. The broadband network will provide 4G 
connectivity and high-speed Internet services, similar to broadband 
applications in urban America. The project is a first step to cover the 
entire Navajo Nation, but will initially support fixed and mobile 
services to 30,000 households and many businesses in 15 of the largest 
communities on the Navajo Nation. Additionally, the project will 
provide an additional capacity to connect 49 tribal communities.
Health, Public Safety and Education Benefits of Broadband
    The project is critical to the Navajo Nation's anchor institutions, 
and will bring telemedicine services to physicians and health care 
personnel at schools, hospitals and tribal agencies throughout the 
entire Navajo Nation. Public Safety will benefit through the additional 
911 notification network. Educators will reach digitally to areas not 
feasible in the recent past. Our project will make a large dent into 
the digital divide on the Navajo Nation, but further efforts are 
needed.
Eligible Telecommunications Carrier
    NTUA has recently formed a last mile telecommunications carrier, 
NTUA Wireless, with a minority partner, Commnet Wireless. NTUA Wireless 
has petitioned the Federal Communication Commission (FCC) for Eligible 
Telecommunications Carrier (ETC) status for the entire territory of the 
Navajo Nation, as a majority owned tribal telecommunications carrier. 
Through the Navajo Nation Telecommunications Regulatory Commission 
(NNTRC), the Navajo Nation formally participates in proceedings before 
the FCC, and is in support of the NTUA Wireless' petition. Importantly, 
NTUA Wireless understands that it must fully comply with the regulatory 
authority of the Navajo Nation and the NNTRC. The Nation therefore 
greatly appreciates and fully supports the FCC's recent Order to ETCs 
operating in tribal territory that they will hereafter be required to 
fully engage with tribes and certify, on an annual basis, that they 
have complied with tribal licensing and other jurisdictional 
requirements. It has been particularly galling to the Navajo Nation, 
and to its sovereignty, that there are licensees of radio spectrum on 
the Nation who do not meet their responsibilities to the Navajo People. 
Carriers operating on the Nation must engage the sovereign Navajo Tribe 
in determining appropriate build out on the Nation, in order to serve 
its vital institutions and community needs. Those licensees who 
completely fail to build out infrastructure and to provide services on 
the Nation should be required to turn radio spectrum over to the 
Nation.
Future Efforts
    A recent housing needs assessment found that the Navajo Nation has 
a 52 percent unemployment rate. Accordingly, many households cannot 
afford access to the new broadband efforts. The Navajo Nation supports 
Lifeline and Linkup programs ($1 dollar phone for low-income 
participants) for future ETCs to help bridge the digital divide. The 
Nation would also like to participate in any pilot efforts by the FCC 
to add broadband services to these programs.
Tribal Energy Development
    The Navajo Nation is blessed with abundant natural resources and 
cursed with unemployment levels reaching 52 percent. Our natural 
resources can help to alleviate unemployment on the Navajo Nation while 
we preserve our air, water and land. Unfortunately, the recent actions 
of the US Environmental Protection Agency to impose costly and 
unnecessary regulation on power plants would effectively kill tribal 
energy development, and deprive the Navajo Nation of economic stability 
and much needed jobs and revenue.
    The Clean Air Act was designed to improve air quality while 
promoting a strong American economy. That balance was essential to the 
bill's passage 40 years ago. Today that balance is at risk in New 
Mexico and Arizona. The Clean Air Act's Regional Haze Rule set a long-
term, achievable timetable for improving visibility in national parks 
and wilderness areas, including those in and near New Mexico, Arizona 
and the Navajo Nation. Under the Regional Haze Rule, States are tasked 
with developing implementation plans to limit emissions from major 
contributors to regional haze. Importantly, states are allowed to 
consider many factors in determining what is the best available 
retrofit technology (BART) for existing coal plants, including non-air 
impacts and the costs of compliance on critical local and regional 
industries.
    In accordance with the Rule's requirements, New Mexico considered 
these factors, and approved and submitted to US EPA a thoughtful, 
comprehensive plan that addressed a variety of contributors to haze 
while minimizing the negative impact to our already vulnerable economy. 
However, instead of approving the state plan, EPA ignored it and put 
forward its own plan, one that calls for technology that is 
significantly more expensive than is required by law.
    EPA's first implementation plan in New Mexico is for the San Juan 
Generating Station west of Farmington, and would impose the most 
expensive technology available, selective catalytic reduction or SCRs. 
This is not necessary technology for phase one of the Regional Haze 
Rule, which only requires reasonable progress to the goal of pristine 
conditions by 2065. . Moreover, in finalizing its own plan, EPA 
mistakenly asserted that its more expensive approach would not 
adversely affect the Navajo Nation--a finding that ignores reality. 
While San Juan is not located on Navajo land, that does not mean there 
will not be negative impacts to our economy and people. On the 
contrary, hundreds of our people are employed at the plant and the mine 
next door that produces its fuel. The wages they earn help to feed, 
house and clothe an even greater number of Navajo people.
    Concerned about the EPA's rule impact on Navajo workers, 
contractors and subcontractors as well as the entire region, we have 
held government-to-government consultation with EPA to urge them to 
reconsider their plan and instead adopt the state plan. That plan would 
improve visibility through new controls on San Juan Generating Station, 
and it would meet federal standards for a fraction of the cost of EPA's 
plan. Unfortunately, these meetings have not yet convinced EPA to 
reconsider its decision.
    The Navajo Nation is now facing similar edict from the EPA 
concerning BART for both the Four Corners Power Plant, on the Navajo 
Nation in New Mexico, and the Navajo Generating Station, located on the 
Navajo Nation in Arizona. US EPA again intends to impose harsh new 
standards on both plants, which together, utilizing Navajo coal, 
provide most of the revenue of the Navajo Nation's general funds, and 
further jeopardize economic development and sustainability on the 
Navajo Nation.
    The Navajo people care deeply about our natural world; and the 
Navajo Nation has worked through our Navajo Nation Environmental 
Protection Agency to preserve the air, the water, and the land around 
us. We also understand the need to balance environmental considerations 
with the economic impact on our people and our neighbors.
    Where the Navajo Nation has a substantial interest in an off 
reservation project, the Tribe and the State should work together under 
the Clean Air Act and the Regional Haze Rule to set standards that are 
achievable and reasonable. On the Navajo Nation, until the Tribe has 
established its own tribal implementation plan for its coal plants, US 
EPA should be working with the Navajo Nation in a government-to-
government relationship, and considering its trust responsibility, in 
setting standards that are reasonable and achievable, and not 
threatening to destroy the Nation's already extremely fragile local 
economy, or to empty its government coffers.
FAA Flyover Exemption
    A recent resolution was passed by the Navajo Nation Tribal Council 
seeking to exempt air tour operators flying to or from the reservation 
from having to use allocations required for commercial air tours at the 
Grand Canyon. A similar exemption was extended to the Hualapai Tribe. 
The Navajo Nation is committed to working with the Federal Aviation 
Administration and the National Parks Service to create such an 
exemption, which would support economic development on Navajo land.
    The Navajo Nation faces difficulties trying to attract businesses 
and extreme economic hardships. It is because of these problems that 
the Navajo Tribal Council is taking a proactive stance to serve the 
interests of the Navajo people, looking to draw in more business and 
opportunity as a means to assist in the future total self-sufficiency 
of the Navajo Nation.
Conclusion
    Congress' federal support, through ARRA funding, has been a 
catalyst to develop broadband efforts that will bring positive economic 
change through future business development on the Navajo Nation. In 
addition, Congress' support for tribally owned or controlled carriers 
achieving ETC status and gaining additional incentives and access to 
licensed spectrum on tribal lands is of critical importance to tribal 
sovereignty and self-determination, as well as meeting the mandates of 
the Universal Service Fund for the equivalent of urban communications 
services reaching all rural Americans as well. Current FCC regulatory 
reform that requires meaningful engagement by telecommunications 
carriers with Tribes will ultimately provide better services to the 
Navajo people and facilitate economic development. Tribes have the 
potential to greatly benefit from the recent actions of the FCC, and we 
hope that Congress will be fully supportive of the FCC's efforts to 
revamp the Universal Service Fund to meet all of our contemporary 
communication needs.
    We have given you a picture of what is working and what is not 
working on the Navajo Nation. Congress should continue to support NTUA 
efforts regarding broadband development. Congress should continue to 
closely monitor EPA and FAA regulatory authority to foster greater 
economic development.
    We appreciate the Senate Committee on Indian Affairs for holding 
this worthwhile hearing on this important topic.
    Ahe'hee, thank you.

    The Chairman. Thank you very much, President Shelly, for 
your statement.
    And now I would like to call on the Honorable Cedric 
Cromwell, Chairman, for your remarks.

STATEMENT OF HON. CEDRIC CROMWELL, CHAIRMAN, MASHPEE WAMPANOAG 
                             TRIBE

    Mr. Cromwell. Aloha, Chairman and Committee. Thank you for 
all the good work you do for Indian Country. For that I thank 
you. We really appreciate it, and you are loved by Indian 
Country, so thank you.
    As Chairman of the Mashpee Wampanoag Tribe, I am honored to 
speak with you today about job creation and what can be done at 
a Federal level to allow us to create jobs for not only our 
Tribal members, but also our citizens of the State of 
Massachusetts.
    The single most effective measure that this Congress can 
take to spur job creation and economic development is to end 
the uncertainty caused by the controversial Carcieri decision. 
That uncertainty impedes trust land acquisition, denies access 
to funds and funding opportunities and creates a continuing 
threat of litigation that casts a cloud over all of our 
economic development plans.
    As you know, despite our Tribe's long history, including 
being the Nation that met the Pilgrims back in 1620, we were 
only reaffirmed as a federally-recognized Tribe in 2007. As a 
recently reaffirmed Tribe, we have much work to do. We have to 
recover from centuries of neglect in which we lost control of 
our homes, our homelands, our natural resources, and the 
ability to protect our way of life. Despite all those losses, 
my community is strong and working to overcome the difficulties 
that the Carcieri decision poses to our efforts to restore a 
piece of our homeland and fulfill our obligation to provide for 
the Mashpee Wampanoag people.
    After centuries of neglect, my people's needs are crushing. 
Over 50 percent of our adults are out of work. Less than half 
our adults have high school diplomas. Not coincidentally, half 
of our population lives below the poverty line. Our elders and 
families struggle to find affordable housing in one of the most 
expensive housing markets in the Country, Cape Code, on lands 
that were allotted away from us in the 19th century. And our 
people suffer from poverty-related health issues like heart 
disease, diabetes, cancer, abuse and depression.
    The Tribe's needs, although starker, are not much different 
from the rest of the Country. My people need housing, and we 
are working to build our first Tribal housing development, 
aided by NAHASDA funding. And certainly, no access to the other 
funding, based on the fact that our lands are fee-based lands 
and not trust lands.
    But the delay in restoring our trust land base means that 
we are burdened by State as well as Federal regulation, and 
progress is slower and more expensive. Job creation and home 
construction is stalled, meaning that those jobs just aren't 
going to happen.
    We are about to celebrate the opening of the Tribe's health 
clinic, funded by Indian Health Services, and operating near 
our Tribal headquarters, in our traditional homeland, but still 
not on our trust land. We wish that we could build bigger and 
better and create more economy through this effort, and more 
jobs, but we are providing the much-needed services to our 
people on fee-based lands.
    We have a high value on teaching our children and working 
to improve the quality of education for young people who are 
now surrounded by a much larger non-Tribal community that has 
come to occupy our Mashpee homeland. To our great pride, our 
children and adults are learning in Wampanoag again. We are not 
waiting to build our dreams, but wish that the few Federal 
programs that we can now access could be supplemented by the 
others that are outside our grasp, because we have no trust 
lands. We wish that the minimal funds that we receive as a 
recently reaffirmed Tribe were more closely tracked by the 
centuries of unmet needs we must remedy. The Federal programs 
now in place that benefit Indians are a fragile lifeline, not 
enough, but certainly not a fair target for budget cuts.
    We want to do more with our homeland, but we cannot yet 
build on trust land, because we don't have it yet. So we must 
confront State assertions of jurisdiction and taxation. It 
would be great if we had economic development zones. So our 
costs go up, jobs and programs are delayed and deferred.
    We want to do more than just catch up, we want to restore 
the power house of Indian Country to Tribal free trade zones 
and Section 17 corporations. That way Tribal trust land can 
support good jobs with competitive wages in manufacturing, 
distribution, goods and services, a true GDP.
    Indian Country can develop a high performing gross domestic 
product as gateway to stabilizing the American economy. Nearly 
500 years ago, roughly 490 years ago, my people controlled it. 
They controlled all their natural resources. If you think about 
it in today's terms, a high performing economy. None of our 
Tribal people left behind, so in the words of today's language, 
we were very rich. We can be rich again, but with a hands-up, 
not a handout. By allowing these trust lands to create an 
economy in which we can build these economic structures through 
free trade zones in which we can provide employment with 
competitive wages and build all these good services and 
products.
    America probably does 4 percent of economic development 
today. In the 1950s, it was 80 percent. In Indian Country, we 
are the answer to the economic boon of America. So we can 
compete with corporate America, they get their tax breaks, they 
go offshore, they give jobs away and will promise renewable new 
energy jobs. And it just hasn't happened in America. So I 
guarantee that with trust lands, Indian Country is the answer. 
It is the investment answer to provide those jobs in the uplift 
of our Indian nations. It also contributes to a high performing 
GDP and will again provide natural resources and an economy 
that will lift this Country back.
    I thank you for your time.
    [The prepared statement of Mr. Cromwell follows:]

Prepared Statement of Hon. Cedric Cromwell, Chairman, Mashpee Wampanoag 
                                 Tribe
    Good afternoon Chairman Akaka and members of the Committee, and 
thank you for your efforts on behalf of so many issues affecting Indian 
Country. As Chairman of the Mashpee Wampanoag Tribe, I am honored to 
speak with you about job creation, and what can be done at the federal 
level to allow us to create jobs not only for tribal members, but also 
our neighbors in Massachusetts.
    The single most effective measure that this Congress can take to 
spur job creation and economic development is to end the uncertainty 
caused by the controversial Carcieri decision. That uncertainty impedes 
trust land acquisition, denies access to funds and funding 
opportunities, and creates a continuing threat of litigation that casts 
a cloud over all of our economic development planning.
    As you know, despite our Tribe's long history, including being the 
Nation that met the Pilgrims back in 1620, we were only reaffirmed as a 
federally recognized Tribe in 2007. As a recently reaffirmed tribe, we 
have much work to do. We have to recover from the centuries in which we 
lost control of our homes, our lands, our natural resources and the 
ability to protect our way of life. Despite all those losses, my 
community is strong, and working to overcome the difficulties that the 
Carcieri decision poses to our efforts to restore a piece of our 
homeland and fulfill our obligation to provide for the Mashpee people.
    After centuries of neglect, my people's needs are crushing. Over 50 
percent of our adults are out of work. Less than half have a high 
school diploma. Not coincidentally, half of our population lives below 
the poverty line. Our elders and families struggle to find affordable 
housing in one of the most expensive housing markets in the country--on 
lands that were allotted away from us in the nineteenth century. And 
our people suffer from poverty-related health issues like heart 
disease, diabetes, substance abuse, and depression.
    The Tribe's needs, although starker, are not much different from 
the rest of the country. My people need housing, and we are working to 
build our first tribal housing development, aided by NAHASDA funding. 
But the delay in restoring our trust land base means that we are 
burdened by state, as well as federal regulation, and progress is 
slower and more expensive. Jobs are slower in coming, as are our homes.
    We want to do more with our homeland. We are planning to build a 
tribal government and community center, assisted by a low interest loan 
from USDA--with the goal of concentrating our governmental programs in 
one site, serving our population more efficiently, and without paying 
for outside rental. But we cannot yet build on trust land, because we 
don't yet have it. So we must confront state assertions of 
jurisdiction, including zoning and taxation. So our costs go up, jobs 
and programs are delayed and deferred.
    We are about to celebrate the opening of the Tribe's health clinic, 
funded by IHS, and operating near our tribal headquarters, in our 
traditional homeland, but still not on trust land. We wish that we 
could build bigger and better, but we are providing much needed service 
to our people.
    With funds from DOI and EPA, we are working to restore the natural 
resources of our home area by introducing conservation efforts, 
shellfish cultivation, and other programs to strengthen and restore our 
cultural heritage, all in areas of our traditional homeland, but 
without the protections that could be much more intense were we to have 
clear jurisdiction over a trust land base.
    We have a high value on teaching our children, and are working to 
improve the quality of education for our young people who are now 
surrounded by a much larger non-tribal community that has come to 
occupy our Mashpee homeland. To our great pride, our children--and our 
adults--are learning in Wampanoag again.
    We are not waiting to build our dreams, but wish that the few 
federal programs that we can now access could be supplemented by the 
others that are outside our grasp because we have no trust land. We 
wish that the minimal funds we receive as a recently reaffirmed tribe 
more closely tracked the centuries of unmet needs we must remedy. The 
federal programs now in place to benefit Indians are a fragile 
lifeline, not enough, but certainly not a fair target for budget cuts.
    Finally, and beyond just catching up, we would look move beyond the 
present and into the future Indian economy of free trade zones and the 
many jobs that we could create were we to be able to so develop our 
trust land base.
    I urge, again, that this Congress swiftly enact a fix to the 
Supreme Court's erroneous ruling in Carcieri. Once that uncertainty is 
resolved, we will be able to more speedily restore a land base, access 
funding, reconstruct portions of our homeland, and create jobs and 
opportunities for us and for the communities among whom we now live.
    Thank you.

    The Chairman. Thank you. Thank you very much, Chairman 
Cromwell.
    And now I would like to call on the Honorable Pearl Casias, 
Chairman of the Southern Ute Indian Tribe, for your testimony.

 STATEMENT OF HON. PEARL E. CASIAS, CHAIRMAN, TRIBAL COUNCIL, 
                   SOUTHERN UTE INDIAN TRIBE

    Ms. Casias. Good afternoon, Chairman Akaka and Mr. Udall, 
distinguished members of this Committee of Indian Affairs.
    I am Pearl Casias, and I thank you giving me audience this 
afternoon. I have been Tribal Chairman of the Southern Ute 
Indian Tribe located near Ignacio, Colorado. I thank you for 
your assistance in the past. That is one of the reasons why we 
come to the Hill, to request your assistance once again.
    Today we wish to discuss obstacles that are hindering job 
creation and economic development in Tribal communities. So it 
not only affects Southern Ute Indian Tribe but also affects 
other Indian Tribes across the Nation. You received my written 
testimony regarding for some of the changes that we would like 
to see. We appreciate your leadership in this Administration 
and we want to thank you for Senate Bill 1684. We would like 
for the Committee to consider marking up some of the Sections 
within that bill.
    Also we would very definitely like to, since you already 
have my written statement, if you are ready to ask questions, I 
am more than happy to proceed with the questions that you may 
have for me.
    [The prepared statement of Ms. Casias follows:]

 Prepared Statement of Hon. Pearl E. Casias, Chairman, Tribal Council, 
                       Southern Ute Indian Tribe
Introduction
    Good afternoon Chairman Akaka, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs.
    I am Pearl Casias and I am the Chairman of the Tribal Council of 
the Southern Ute Indian Tribe, located near Ignacio, Colorado. Thank 
you for the opportunity to appear before you today to discuss legal and 
regulatory obstacles that are hindering job creation and economic 
development in tribal communities.
Background on the Southern Ute Indian Tribe
    As the Committee knows, in the late 1980s the Southern Ute Indian 
Tribe (Tribe) embarked on a strategy of taking control of its natural 
resources for the benefit of our tribal members. In the interim, the 
Tribe has become a major producer of natural gas in the United States, 
and along the way has earned ``AAA'' ratings from national credit 
rating agencies.
    With $15 trillion in national debt, $1.2 trillion in annual 
deficits, and unemployment holding steady at 9 percent, our nation 
faces the most serious economic and political challenges since the 
1930s. At the same time, tribal communities have been plagued by 
jobless rates much higher--as high as 80 percent on some reservations--
for generations.
    Clearly, bold action is needed to unlock the economic potential of 
Indian tribes which will provide jobs, income and hope to tribes and 
their members, as well as to surrounding communities who will also 
benefit enormously from stronger tribal economies.
    In January 2011, President Obama issued an Executive Order on 
regulatory reform with the stated aim of revisiting existing and future 
regulations to make sure they pay due regard to their effects on job 
creation and development.
    With this hearing, this Committee is taking the necessary steps to 
hear from Indian Country about the many obstacles to job creation and 
stable economies.
Themes and Ideas for Committee Consideration
    To create more business-friendly environments in Indian Country, I 
offer the following items for your review. It is important to note that 
these are not only applicable to energy-oriented development efforts, 
and in many cases apply to any development project a tribe might wish 
to pursue.
1. Indian Energy Bill
    Before discussing some of the generally applicable reforms and 
other ideas, I want to commend the Vice Chairman and the Chairman for 
their leadership in developing and introducing S.1684, the Indian 
Tribal Energy Development and Self Determination Act Amendments of 
2011. This bill contains very good, pro-development amendments to 
existing law that the Tribe believes will be helpful in more efficient 
and effective energy development on tribal lands.
    I urge the Committee to schedule a legislative hearing and markup 
of this important bill before the year is out, with the goal of passing 
it and sending it to the President before the 112th Congress expires.
2. Leasing Reforms
    For development projects that occur on surface lands as well as 
subsurface lands, the Federal leasing process can be time-consuming, 
costly and in the end, uneconomic. The Department of the Interior's 
recent announcement of a proposed regulation to reform and streamline 
the trust land surface leasing statutes is a very welcome development 
and we applaud the Secretary for taking the leadership on this issue.
    We also laud Vice Chairman Barrasso for introducing the ``Helping 
Expedite and Advance Responsible Tribal Homeownership Act of 2011'' 
(the HEARTH Act, S.703), and the Committee for approving the bill and 
sending it to the full Senate for its consideration. If enacted, the 
HEARTH Act will provide tribes with greater autonomy over surface 
leasing of their trust lands and will help tribal entrepreneurship as 
well as attract outside investment to tribal economies. We fully 
support efforts reflected in that legislation that would authorize 
tribes to enter into surface leases without secretarial approval.
3. Appraisals
    Another area in need of this Committee's attention is the appraisal 
process. For any transaction involving tribal trust land or trust 
assets, an appraisal is required to be performed to ensure that not 
less than fair market value is being offered as part of the 
transaction. Legislative proposals that would provide time limits on 
the Secretary's consideration of appraisals and estimates of fair 
market value have been made in recent years. We support those concepts, 
but believe it important for true appraisal reform to offer tribes the 
option of developing their own tribal methodologies and processes to 
make value determinations and to manage their own appraisal regimes. 
The substantial delays and inflexible appraisal standards associated 
with the Federal appraisal requirement must be reformed.
4. NEPA.
    Mr. Chairman, the Southern Ute Indian Tribe is both a prolific 
energy producer and a careful steward of our natural environment. As 
such, we know the value of striking the right balance between 
development and natural resources protection.
    Because so many of the approvals necessary for a development 
project on tribal lands require the involvement of the Secretary of the 
Interior or other Federal officials, the National Environmental Policy 
Act (NEPA) often applies to these decisions. For instance, the act of 
the Secretary approving a surface lease of tribal trust lands triggers 
NEPA. Needless to say, this requirement often causes unnecessary delays 
and, in some cases, can cause viable economic opportunities to be lost 
to tribes and their members. We believe the Committee should review 
tribal environmental processes and capacity and investigate ways to 
make the tribes the primary stewards of environmental protection when 
it comes to their own lands.
5. Fees for Applications for Permits to Drill
    Beginning with the FY 2007 Interior Appropriations Act, the 
Congress authorized the Bureau of Land Management (BLM) to levy and 
collect a $6,500 fee for every Application for Permit to Drill on 
Federal lands. The Department of the Interior interpreted ``Federal 
lands'' to include Indian lands, and in the intervening years, the BLM 
has collected these fees from operators on Indian lands.
    These fees, taken together with the impediments mentioned above, 
provide a significant comparative disadvantage to energy development on 
Indian lands because these factors do not come into play on privately-
owned or state lands.
6. Raising the Comfort Level of Investors and Developers
    There are numerous issues the Committee might also wish to 
investigate that would improve the attractiveness of tribal economies 
to investors. These include:

        a.  Providing certainty in the creation and perfection of 
        security interests related to personal and interests in trust 
        property on tribal lands;

        b.  Clarifying the power and authority of a <l-arrow>17 
        Corporation to grant interests in tribal trust property to 
        financial investors; and

        c.  Improving the Land Title Records Office tribes must use for 
        purposes of land records or, alternatively, authorizing tribes 
        to use state land recordation offices.

    We intend to provide additional detail and rationale for these 
items for the record.
    In conclusion, I want to again thank the Committee for holding this 
hearing and for its leadership in recognizing that there are many 
problems that can be addressed without spending money and which, in the 
end, will have profound effects on the health of tribal economies 
nationwide.
    I would be happy to answer any questions you may have.
    Thank you.

    The Chairman. Thank you very much. I do have questions for 
all of you.
    President Shelly, you highlighted a large number of new 
homes and businesses that Navajo plans to connect to broadband. 
How do you expect this new broadband to create jobs in the 
Navajo Nation and its surrounding communities?
    Mr. Shelly. Thank you for the question, Chairman. It 
creates hundreds of jobs, they are being created in 
construction, in maintenance of our fiber optic, as I earlier 
mentioned. And also putting up towers, it is going to create a 
lot more jobs. And to maintain it will create more jobs.
    And by building more homes, it also will provide hookup to 
all of those homes, to provide the service connectivity. And 
then people that are in the house, that are living in there, 
all the wiring that has to be done to make the connectivity, it 
creates other jobs. So an electrician, technical people will be 
around that house and hooking the connectivity and using that 
broadband. That would be my answer.
    As history shows also, connectivity by broadband brings 
along later commercial options too. It really brings a lot of 
stuff in. Connectivity is the answer for us. I would like to 
see my grandkids, my children that stand on top of that world, 
the world itself, stand on top and see the world through all of 
this internet and technology that we have. I want my Navajo 
kids and my people to have that power like every one of you 
have. That is what I want for them.
    The Chairman. Thank you so much for your response.
    Chairman Cromwell, what are some of the economic 
opportunities that your Tribe will be able to pursue in the 
future if you are able to rebuild your homeland?
    Mr. Cromwell. Thank you, Chairman Akaka. I want to point 
out something that has just happened in Massachusetts that I 
have been working very diligently on the last two and a half 
years. The State of Massachusetts passed an expanded gaming 
bill with Section 91 with Native American priorities. So it is 
the first State that has ever written Federal law which 
supports trust lands which supports my Tribe from a federally-
recognized perspective. They are very supportive, the Governor 
wants to do this with our Tribe. We have strong relationships. 
That trust lands is a component of that. They believe that we 
will get a compact together, which is very meaningful for my 
Tribe and provides protection for both the Tribe and 
Commonwealth.
    But the next step is that we need that trust land to 
fulfill that economic opportunity. So the foundation of that 
is, number one, who we are as a distinct, unique political 
entity within the United States Constitution, all us Indian 
people, 565 Tribes. And the State recognizes that and wants to 
work with us. So we need those trust lands, it is very 
important to us.
    As you know, Cape Winds was a big impact on the Wampanoag 
Nation, the Mashpees and the Aquinnas. And so pre-Section 106 
consultation, it should have been a proactive planning with the 
Ocean Management Board to include the Mashpees and the Aquinnas 
in that planning process, because where they staked out the 
renewable wind energy was on sacred, historical, religious 
cultural properties land, which was proven by the Massachusetts 
Historical Society and also the Federal level, the Park 
Services. But they still moved forward with that. When you look 
at that, that was above water, we think of it as building 
windows on somebody's cemetery.
    So we look at those opportunities, but we want to be part 
of the planning process, we want to be part of that solution. 
Because we do believe in those renewable energies, and we 
understand how to work this ocean management plan. We have 
expertise and we want to do it, but we are not included. So we 
look at those renewable energy opportunities, not only with 
that, we also look at land renewable energy projects on our 
land. But we need trust lands to access those funding 
opportunities to be able to move forward.
    The Chairman. Thank you for your response.
    We will have a second round on questions. Let me call on 
Senator Udall for his questions at this time.
    Senator Udall. Thank you, Mr. Chairman.
    President Shelly, let me just say again how proud I am of 
the work you are doing on the Navajo Nation. You have only been 
President for a short time, but I think you have brought 
excellent leadership to the Navajo Nation. It is good to see 
that the first lady, Martha Shelly, is accompanying you. She is 
back there in the audience, and we are happy to have her here.
    President Shelly, in your testimony you talk a lot about 
the projects that have come out of collaboration with the FCC 
and then also the American Recovery Act, ARRA. Could you share 
a little bit more on the human impact of these programs with 
the Committee, like what do these new lines and towers mean for 
the Navajo people? What is the sentiment of the Navajo Nation 
about broadband development? What kind of local support and 
interest is there for these projects? And have these created 
jobs out there on the Navajo Nation?
    Mr. Shelly. Thank you for the question, Senator. Our model 
of what broadband is, commercial, education, government, public 
safety, medicine, and as we all know, the Navajo Nation is the 
size of West Virginia. We don't live elbow to elbow up there. 
We have a large, remote area. A lot of connectivity needs to 
happen in medicine, public safety and other areas, just 
communicate. It is hard right now, we don't have that.
    I would like to also say that the answer to whatever else, 
for the other thing that I wanted to say, I kind of lost that, 
the rabbit goes in the hole, as they say. But we like to say 
that there is a lot of interconnectivity. Without that, we 
really, at this point, to be honest with you, the Navajo Nation 
is lost, because there is no connectivity.
    And when you go into your remote area, your health is at 
risk, your life is at risk. But with all of this, and the more 
we open this up in our connectivity, it also creates jobs, like 
marketing, your commercial and marketing. Business can now be 
capable of going online to do commercial. You have increased 
bandwidth to establish a new business. Merchants can conduct 
online sales more easier, Navajo-owned business. So on and on, 
it adds on to more stuff, because you can do a lot of stuff 
online. We can get medical help and emergency assistance, 
health care, where elders can call in online, emergencies help 
online. Because all of our emergency services are a distance 
away. Somebody's choking, they can be done online to save a 
life. Everything can be done online.
    So if we have connectivity, we are a lot safer, we get 
things done quicker to help each other out.
    Senator Udall. President Shelly, your model has been 
working collaboratively on the Navajo Nation on this project. I 
think you call it in our testimony, Navajo Nation Middle/Last 
Mile Project, Quality Broadband for the Navajo Nation. And it 
is a very ambitious project, and it is an admirable project. 
The thing that is very apparent by it, as you just said, it 
connects all the Navajo people together even though there are 
such broad areas that are covered, on a very rural reservation.
    The other thing it does, as you well know, is telemedicine. 
You have the clinics, you have the Indian hospitals. But to be 
able to get the best experts to be able to consult on patients, 
that takes broadband, that takes the internet. And that is 
going on out there.
    So there are significant things happening. I am wondering, 
in your collaborations and consultations, have you run into any 
problems in terms of sovereignty? Or have you been able to work 
well with all the partners and get things in place and working 
for the Navajo Nation?
    Mr. Shelly. Thank you for the question, Senator. We are 
very fortunate with telecommunication director, Brian Tekaban. 
He is a member of the United States SEC Commission. And we 
asked for authority that we are now, we went to the SEC, the 
discussion was made and there was a decision that came out, a 
lot of wireless carriers didn't want Navajo to have this 
authority. We now have the authority, if anybody wants to come 
on the reservation, they have to come to the Navajo Nation for 
permit. The wireless vehicle, any service, it comes to the 
Navajo Nation. We issue permit now, we have that authority.
    A lot of people like AT&T and Verizon fought us, but we won 
that. So with that, it also gives us an open door to have our 
own wireless service. So it provides us an opportunity that if 
we love the Code Talker like we do, I would like to maybe 
change our airspace to Whispering Wind, Wind Talker, right 
along with AT&T, Verizon. We also found that we had been 
cheated a lot. There is such a name as spectrum. There is some 
money being collected when these airspace and the wireless 
services are using, those monies are collected and guess where 
it is going? It is going back to the U.S. Treasury.
    But what I would like to do by naming the air space to 
whatever it is, Whispering Wind or Wind Talker, that would set 
up an account for the Navajo Nation so if they do anything, it 
will go back to the Navajo Nation when we are using that fund.
    Senator Udall. Thank you, President Shelly. And thank you 
for your courtesies, Mr. Chairman, I know I ran over a little 
bit. I don't think I have a need for a second round. I think 
this is an excellent panel. Thank you.
    The Chairman. Thank you very much, Senator Udall.
    I have a question here for Chairman Casias. The Southern 
Ute Tribe is the largest employer in LaPlata County. What 
businesses are the largest creators in your Tribe, what will 
create the most jobs in the future?
    Ms. Casias. Thank you, Chairman Akaka, for the question.
    We established our own energy department in 1980 and in 
1992, we developed Red Willow Production Company, which we 
drill natural gas on our reservation. Based on that, we 
increased the employment for our company by hiring citizens 
within LaPlata County. We also established a community center 
in 1971 and in 1993, we converted that to a casino, primarily 
to employ Tribal members of the Southern Ute Tribe. It was not 
an establishment that would provide revenues to the Tribe. It 
was, the foundation for the casino was to provide jobs for our 
people. And it still remains in that category that it provides 
jobs for our people.
    Then in 1999, we created a financial plan for the Southern 
Ute Indian Tribe. As a result of that, we developed the Growth 
Fund Entity, which is a business arm of the Southern Ute Indian 
Tribe. It is a separate arm of the Tribal government to 
diversify the revenues that we receive from natural gas 
drilling and transmission off of the Southern Ute Indian 
Reservation.
    In 2003, we built a new Tribal administration building. And 
we named it after our honorable Chairman, Mr. Leonard C. Burch. 
That building now houses all of our administrative staff. So we 
have three separate entities on the Reservation that employ 
1,500 people from LaPlata County. There may be also some 
employees that live just across the State line in New Mexico. 
That has been the reason why we are the largest employer in 
LaPlata County.
    We continue to increase our employment simply because with 
the diversification of the Southern Ute Indian Tribal revenues, 
we have gone off-reservation and we have purchased real estate, 
we have purchased other businesses. We employ those individuals 
off-reservation in order to create a revenue stream for our 
people. So that is the methodology that we have created to make 
us the largest employer.
    The Chairman. Thank you very much.
    I want to thank you for mentioning S. 1684. It is an energy 
bill that I co-sponsored with Vice Chairman Barrasso. I just 
want you to know that we intend to have a hearing on energy and 
particularly on that bill early in the second session of this 
Congress. So we are not done with energy yet. It is a growing 
concern, and it is an answer to economic problems, not only for 
the Indian Tribes but for the rest of the Country. We want to 
be sure that you have the tools that are needed to move in this 
direction.
    So thank you, and I just wanted you to know that we think 
it is an important area we have to work on. Thank you.
    I want to thank this panel and the other witnesses as well 
for all you have done for the Committee. You have been very 
informative. You know that our intention today was to know all 
the activities that are happening out there and what we need to 
continue to do in this particular area. I look forward to 
working with you on that.
    The Tribes are not on an equal playing field. And that is 
our concern. When it comes to economic development, Federal 
agencies can, however, support them through financing and 
infrastructure development and regulatory reform. I hope that 
this hearing has helped highlight Federal agencies as essential 
partners along with Tribes and private sector in growing and 
sustaining Tribal economies. We all need to work together in 
order to strengthen our Nation's economy and put more Americans 
back to work. I mention it that way because it is not only for 
the Tribes, and they continue to say it also helps the 
communities in their area as well.
    So again mahalo, thank you to all of you for participating 
in today's hearing. I want to remind you that the Committee and 
its record will remain open for two weeks from today, because 
we certainly want to hear from others who want to comment on 
this hearing. So thank you very much for being here. The 
hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]






                            A P P E N D I X

  Prepared Statement of Hon. Cedric Black Eagle, Chairman, Crow Tribe


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
